<html>
<title> - CHINA'S HUMAN RIGHTS LAWYERS: CURRENT CHALLENGES AND PROSPECTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                     CHINA'S HUMAN RIGHTS LAWYERS: 
                    CURRENT CHALLENGES AND PROSPECTS

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 10, 2009

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov




                  U.S. GOVERNMENT PRINTING OFFICE
51-189 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                             CO N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Charlotte Oldham-Moore, Staff Director, 
  Congressional-Executive Commission on China....................     1
Grob, Douglas, Cochairman's Senior Staff Member, Congressional-
  Executive Commission on China..................................     1
Pitts, Hon. Joseph R., a U.S. Representative from Pennsylvania, 
  Member, Congressional-Executive Commission on China............     2
Cohen, Jerome A., Professor, New York University School of Law; 
  Codirector, U.S.-Asia Law Institute; and Adjunct Senior Fellow 
  for Asia Studies, Council on Foreign Relations.................     4
Turkel, Nury, Attorney with Kirstein & Young, PLLC...............     9
Feinerman, James V., Professor of Asian Legal Studies, Georgetown 
  University Law Center, Codirector, Asian Law and Policy Studies 
  Program........................................................    11
Fu, Bob (Xiqiu), Founder and President, ChinaAid Association 
  (CAA)..........................................................    16

                                APPENDIX
                          Prepared Statements

Cohen, Jerome A..................................................    28
Feinerman, James V...............................................    31
Fu, Bob (Xiqiu)..................................................    39

                       Submissions for the Record

Final Compilation of Translated Lawyers' Statements, submitted by 
  Bob (Xiqiu) Fu.................................................    41

 
                     CHINA'S HUMAN RIGHTS LAWYERS: 
                    CURRENT CHALLENGES AND PROSPECTS

                              ----------                              


                         FRIDAY, JULY 10, 2009

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 10:02 
a.m., in room 628, Dirksen Senate Office Building, Charlotte 
Oldham-Moore, Staff Director, presiding.
    Also present: Representatives Joseph Pitts and David Wu.
    Also present: Douglas Grob, Cochairman's Senior Staff 
Member and Kara Abramson.

 OPENING STATEMENT OF CHARLOTTE OLDHAM-MOORE, STAFF DIRECTOR, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Ms. Oldham-Moore. We'll get started. We're going to be 
joined shortly by Congressman Pitts, who is a Commissioner.

 STATEMENT OF DOUGLAS GROB, COCHAIRMAN'S SENIOR STAFF MEMBER, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Mr. Grob. Thank you. Good morning, everybody. Welcome to 
the CECC's eighth roundtable this year.
    Before we get started, I would just like to say, on behalf 
of the Chairman and Cochairman of the Commission, that we are 
deeply saddened by the recent reports of deaths and injuries in 
the Xinjiang Uyghur Autonomous Region of China, and express 
heartfelt sympathy to Uyghur and Han Chinese individuals, and 
all individuals and their families who have suffered.
    We are delighted this morning to have a distinguished panel 
of experts to discuss China's Human Rights Lawyers: Current 
Challenges and Prospects. I would like to gratefully 
acknowledge the presence of Representative Joe Pitts. Thank 
you, Commissioner Pitts, for joining us here this morning.
    At this roundtable our distinguished panel will discuss 
China's human rights lawyers and their role in advancing the 
rule of law in China. We will examine the relationship between 
these lawyers, the Chinese government, and the Communist Party, 
and explore why Chinese authorities recently have stripped some 
prominent rights lawyers of their lawyers' licenses. We will 
delve into documented incidents of increased harassment of 
human rights lawyers in China, and ask what the future now 
holds for them, and also ask what their treatment suggests 
about the development of the rule of law in China more 
generally.
    I'd like just to share with you this month's issue of 
Chinese Lawyer magazine, which features a cover story on a 
leading criminal defense attorney at a major Chinese law firm, 
a firm that has hundreds of attorneys in four cities, now in 
its 16th year of operation. Just two decades ago, such a law 
firm would have been somewhat unimaginable, and represents an 
important development in many ways. So does China's revised 
Lawyers Law, which took effect last year, and which contains 
provisions aimed at combating some of the difficulties that 
criminal defense lawyers in China face in representing their 
clients. Some provisions of the Lawyers Law conflict with 
China's Criminal Procedure Law, but overall the revision of the 
Lawyers Law too, is an important step.
    Yet at the same time, we gather here today to discuss 
Chinese authorities' failure to renew the professional licenses 
of some prominent lawyers who take on what the government deems 
to be politically sensitive cases. So, for those who see a 
threat to justice anywhere as a threat to justice everywhere, 
it's only natural to ask the question: What does this portend 
for the future of procedural law in China in general in areas 
beyond what is classically known as human rights law, and 
extending as far as to commercial law and other areas of civil 
law and criminal law in China?
    And so I now would like to turn the floor over to 
Representative Pitts and ask if you have a statement or remarks 
to make.

 STATEMENT OF HON. JOSEPH R. PITTS, A U.S. REPRESENTATIVE FROM 
  THE STATE OF PENNSYLVANIA, MEMBER, CONGRESSIONAL-EXECUTIVE 
                      COMMISSION ON CHINA

     Representative Pitts. Thank you. Thank you, Mr. Grob. I 
really appreciate your holding this important roundtable 
discussion.
    I am disturbed by the recent reports regarding human rights 
lawyers in China. More than 18 lawyers, I'm told, who have been 
representing sensitive human rights cases have not been able to 
renew their law licenses, according to Human Rights Watch. This 
number is unprecedented. Some reports even indicate that 
lawyers have been arrested and beaten, in some cases even 
kidnapped, because of their involvement in human rights cases.
    Human rights attorney Gao Zhisheng, a prominent lawyer who 
has worked on religious freedom cases, has been missing since 
February 4 of this year. Li Heping, another lawyer who has 
defended Christian house church leaders, and Gao Zhisheng have 
been among the lawyers to be denied renewal of their law 
licenses. I personally met with some of these lawyers, 
including Li Heping. I'm very concerned with the effects that 
this trend will have on the rule of law in China and the basic 
human rights of the people, the Chinese people.
    In addition, law firms are being pressured to provide 
authorities with ammunition to deny the licenses of lawyers 
involved in these sensitive human rights cases. On May 28, the 
New York Times reported, ``In some cases the law firms were 
told that they could avoid difficulties by giving the lawyers 
failing grades in their annual performance evaluation.'' At 
least three law firms have not been allowed to pass inspection 
because of lack of cooperation with the government. These 
actions are clearly intended to intimidate lawyers and law 
firms into not taking these sensitive human rights cases.
    So I look forward to hearing from our distinguished 
roundtable witnesses, receiving their insights and 
recommendations on the steps that we in the Congress, the U.S. 
Government, should take to further support the fundamental 
rights of the Chinese people and the attorneys who are seeking 
to uphold their human rights. I would like to extend a special 
welcome to my good friend, Bob Fu, who I've worked with for 
many years, and thank him for his work and dedication on behalf 
of human rights and religious freedom in China.
    Thank you, Mr. Grob. I yield back.
    Ms. Oldham-Moore. Thank you, Congressman Pitts. We're 
really grateful that you are here today.
    I'm going to do a quick introduction of our extraordinary 
group of panelists today.
    We must always begin with Professor Jerome Cohen, who is an 
American treasure. Professor Cohen is a leading American expert 
on Asian law, has been a professor at the New York University 
School of Law since 1990, where he is also the codirector of 
the U.S.-Asia Law Institute.
    Mr. Cohen is also an Adjunct Senior Fellow for Asia Studies 
at the Council on Foreign Relations. Before retiring from a 
partnership at Paul, Weiss, Rivken, Wharton at the end of 2000, 
Mr. Cohen represented many companies and individuals in 
contract negotiations, as well as in dispute resolutions in 
various Asian countries. He writes a biweekly column for Hong 
Kong's South China Morning Post and Taiwan's China Times and is 
a frequent pro bono consultant in human rights and criminal 
justice cases relating to China and Taiwan.
    Mr. Cohen formerly served as Jeremiah Smith Professor and 
Director of East Asian Legal Studies, and Associate Dean at 
Harvard Law School. He has published several books, including 
``The Criminal Process in the People's Republic of China: 1949-
1963,'' ``People's China and International Law,'' and 
``Contract Law of the People's Republic of China,'' and many 
articles on Chinese law, as well as a general book, ``China 
Today,'' coauthored with his wife, Joan Liebold Cohen.
    Today Mr. Cohen continues his research and writing on Asian 
law, specifically focusing on criminal justice reform, dispute 
resolution, human rights, and the role of international law.
    Mr. Cohen also served in government, first as an Assistant 
U.S. Attorney in Washington, DC in the late 1950s, and then as 
a consultant to the U.S. Senate Committee on Foreign Relations. 
Mr. Cohen is a Phi Beta Kappa graduate of Yale College and a 
graduate of Yale Law School, where he was editor-in-chief of 
the Yale Law Journal. He was law secretary to Chief Justice 
Earl Warren of the U.S. Supreme Court in the 1955 term, and law 
secretary to Justice Felix Frankfurter of the Supreme Court in 
the 1956 term.
    Next to Mr. Cohen is Mr. Nury Turkel, who is an attorney at 
Kirstein & Young. Mr. Turkel is an attorney there and his 
practice focuses on commercial and regulatory matters.
    Prior to joining Kirstein & Young, Mr. Turkel managed a 
Washington-based nonprofit organization, the Uyghur-American 
Association, which works to promote democratic freedoms of 
Uyghur people in China and Central Asia. He has testified 
before the U.S. Congress and given many presentations, 
including at the U.S. Military Academy, the National Defense 
University, and Columbia University. He has also published many 
columns and op-eds.
    To my right is Professor James Feinerman, who we are very 
fortunate to have with us today. Professor Feinerman joined the 
Georgetown University Law Center faculty as a visiting 
professor for the 1985-1986 academic year. Immediately after 
law school he studied in the People's Republic of China. 
Subsequently he joined the New York firm of Davis, Polk & 
Wordwell as a corporate associate.
    During 1982-1983, Professor Feinerman was a Fulbright 
lecturer on law at Peking University. In 1986, he was a 
Fulbright researcher in Japan. In 1989, he was awarded a 
McArthur Foundation Fellowship to study China's practice of 
international law.
    During the 1992-1993 academic year, he was a fellow at 
Woodrow Wilson International Center for Scholars. From 1993-
1995, on leave from the Law Center, Professor Feinerman was the 
director of the Committee on Scholarly Communication with 
China. Professor Feinerman served as the editor-in-chief of the 
American Bar Association's China Law Reporter from 1986 to 
1998. He spent spring 2006 as Fulbright senior distinguished 
lecturer at Tsinghua University Law School in Beijing. 
Professor Feinerman is the author of numerous journal articles 
and opinion pieces on the rule of law in China and has 
coauthored two books.
    Finally, Mr. Bob Fu, president of the ChinaAid Association. 
He is one of the leading voices in the world for the persecuted 
church in China. He was born and raised in mainland China, and 
graduated from the School of International Relations, People's 
University in Beijing.
    He was a pastor at a house church in Beijing until he and 
his wife, Heidi, were jailed for two months for illegal 
evangelism in 1996. They fled to the United States as religious 
refugees in 1997. Mr. Fu founded the China Aid Association in 
order to draw international attention to the Chinese 
Government's human rights violations against house church 
Christians. He is now a visiting 
professor in Religion and Philosophy at Oklahoma Wesleyan 
University, and a Ph.D. candidate at Westminster Theological 
Seminary in Philadelphia. He has written numerous pieces, 
including as a guest editor for the China Law and Government 
Journal by the University of California, Los Angeles.
    Lots of information there. Let's get right to it. Professor 
Cohen, we'd be delighted to hear your statement.

 STATEMENT OF JEROME A. COHEN, PROFESSOR, NEW YORK UNIVERSITY 
SCHOOL OF LAW; CODIRECTOR, U.S.-ASIA LAW INSTITUTE; AND ADJUNCT 
  SENIOR FELLOW FOR ASIA STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Cohen. Thank you very much. I want to thank 
Representative Pitts for coming here and showing such concern 
for the lawyers of China who are worried about human rights. I 
want to thank, of course, Ms. Oldham-Moore, Mr. Grob, and the 
staff for organizing this.
    In 1977, a former student of mine, Victor Li, published a 
very interesting book called, ``Law Without Lawyers.'' His 
thesis was, China has a distinctive political-legal culture, 
it's not one, as in Western countries or elsewhere, that 
requires a prominent role for lawyers, and the world should be 
open to recognizing China's distinctive characteristics.
    Deng Xiaoping and company, soon after, took a different 
view. They resurrected the Soviet model that China had imported 
during its first decade of Communism. They modified the model 
for economic purposes, but they retained it for political-legal 
purposes. That included reliance on lawyers.
    Of course, the reliance on lawyers that China soon 
demonstrated throughout the 1980s and 1990s had many virtues. 
One of the problems, however, was when it came to human rights 
matters, the lawyers were subjected to restraints, just as 
Soviet lawyers were. This has been a continuing problem.
    I have a formal statement; some of you may have a copy. I'm 
not going to read it, but I thought I would try simply to 
summarize it in the time allotted.
    The 2007 amendment to the Lawyers Law offered some greater 
hope to lawyers that they would be able to take part in 
criminal cases to a greater extent, and that they would have 
more autonomy in governing their own affairs.
    It has been an improvement in some respects. In other 
respects, however, there is vague language in the law about 
state security, et cetera, that is easily subject to 
manipulation to use against lawyers. What we have found, 
although China has about 150,000 lawyers, only a very tiny 
minority have shown an active interest in human rights matters, 
and perhaps not more than 1 percent make human rights matters 
the bulk of their professional concerns. That is natural. 
Lawyers have to make a living.
    The problem is, the human rights lawyers who are active 
have consistently run into difficulty from the Ministry of 
Justice that controls them and from the local lawyers 
associations that operate with the guidance and instruction of 
the Ministry of Justice.
    That is why, in Beijing and Shenzhen, and a few other 
places, rights lawyers have tried to gain democratic control 
over the local lawyers' association. They have only made modest 
progress. If you're interested, there is a recent issue of 
China Rights Forum about the rule of law that is one of the 
sources for following the struggle of human rights lawyers for 
autonomy and governing themselves.
    In the real world, these lawyers' associations work under 
the Ministry of Justice and impose discipline, as 
Representative Pitts has already recognized, on lawyers. 
Normally they operate quietly. They try to have chats, informal 
talks, with lawyers to discourage them from taking part in a 
broad range of cases. If they do not discourage them from 
taking part, they certainly require them to report, to accept 
guidance, in the handling of sensitive cases. These cases 
include highly controversial, sensitive political cases, like 
those involving Xinjiang and Uyghur independence claims, or 
Tibet, or people who want to organize democratic parties.
    Falun Gong has been one of the most controversial 
categories. The systematic abuses received by the Falun Gong 
worshipers have been a highly sensitive point, and most lawyers 
are not permitted to represent Falun Gong defendants, and those 
who do are highly controlled.
    ``House church'' people have also often found legal advice 
is not available to them, or is inadequate. There have been 
many cases involving claims against government for rather 
mundane activities. Corruption questions involving local 
officials, attempts to subject women to arbitrary birth control 
procedures, forced eviction of people from their housing and 
relocating them to places they don't want to be. Even civil 
cases encounter interference with lawyers on occasion.
    Professor Feinerman's statement, which I looked at briefly 
before the hearing, has many good examples of land 
transactions, environmental disputes, collective labor 
disputes, compensation for tainted milk products, earthquake 
victims; all of these cases have been cases where many 
lawyers--public interest lawyers, human rights lawyers--have 
wanted to take part and have often been refused or restrained 
in their effort to take part. The most recent case involves the 
Charter 08 organizer, Liu Xiaobo, who was not permitted to 
retain the famous rights lawyer, Mo Shaoping.
    Now, lawyers who don't follow the informal advice/
suggestions/
instructions of the local lawyers' association or the judicial 
bureau of their city suffer many sanctions. Their license to 
practice law may be suspended, it can be revoked.
    A most recent technique used is to get the local lawyers' 
association, as Representative Pitts recognized, not to approve 
the renewal of lawyers' licenses and that effectively denies 
these people the ability to practice law. And as has been 
indicated, their law firms are coerced to restrain them, stop 
them, or fire them, move them out; there are a variety of 
techniques we do not have time to consider.
    Moreover--and this is rarely focused on--there are 
Communist Party organizations in these law firms. These law 
firms have Party organizations, like every social unit in 
China. They have been strengthened so that most law firms now 
will have a Party organization, a Party branch, that may 
reinforce discipline.
    Now, for the lawyers most unresponsive to the guidance of 
the authorities, criminal process has been invoked. A number of 
people have been sent to prison on a variety of pretexts. 
Criminal law in every country tends to be rather broad, and in 
China it is especially vague. That is how lawyers who have 
already lost their 
license, like Gao Zhisheng in Beijing and Zheng Enchong in 
Shanghai, have been sentenced to prison.
    In Shenzhen, a lawyer, Liu Yao, was sentenced to prison, 
and only the petition of over 500 local lawyers got him out 
after 16 months. But in all such cases, these people who are 
convicted of crime lose their right to practice law forever, 
and that certainly makes a major inroad on their ability to 
earn a living and their capacity to carry out public interest 
work.
    Moreover, even self-taught, ``barefoot'' lawyers, who 
aren't really licensed lawyers but who, through self-study and 
experience and practice, have managed to learn something about 
law and who play an important role in some places in the 
countryside, have been sent to prison.
    Chen Guangcheng is the most famous example. He's still got 
about a year to serve. I know all these people. I know Gao, I 
know Zheng, I know Liu Yao, I know Chen Guangcheng. These are 
marvelous people. They don't deserve criminal punishment.
    Another case involves Guo Feixiong, I didn't have space for 
it in my introduction, but should mention it. He's another 
``barefoot'' lawyer, convicted for operating a business without 
a license because he published a book about eight years ago 
without having the requisite approval. He got five years for 
that, an unusually heavy sentence.
    The worst aspect of this from my point of view is the 
physical intimidation that many ``rights'' lawyers are 
informally exposed to. Today is the 156th day since Gao 
Zhisheng was ``disappeared,'' to use the English version of 
Latin American parlance. You remember the techniques of Latin 
American dictatorships? Well, is China starting that?
    Gao had been convicted. He'd been released on a suspended 
sentence, but he didn't comply with all the demands made on 
him, especially not to reveal torture he had already suffered, 
and he has not been heard from since his abduction. Absurdly, 
the Chinese Embassy in Washington, in response to congressional 
inquiry, has said he's on probation and he's free. Well, if 
he's free, no one knows where he is. Many people fear he's 
dead. So, this is not a happy situation.
    Of course, many lawyers have been beaten. Professor 
Feinerman gives some details on that. I know some myself. I've 
seen the bruises just a few weeks ago in Beijing on some of the 
lawyers who were more recently attacked. And, of course, I know 
Professor Teng Biao, who was kidnapped, a hood put over his 
face, taken to a remote place, held for hours, and threatened. 
This is Hitlerian, thuggish behavior. It's not appropriate, 
given China's accomplishments, China's great progress in 
economic and social matters and the desire of the Chinese 
leadership to have their country recognized as having a 
civilized government. It should stop.
    And, of course, in their daily lives, many ``rights'' 
lawyers are monitored. If I call a rights lawyer up and say, 
``Can you come for dinner tomorrow? '' He says, ``I have to ask 
my keeper who's outside.'' He calls back and says, ``No, they 
won't permit me to come. If I want to go to the office tomorrow 
I can't go to dinner with you tonight, but maybe I can send a 
substitute.'' It's their daily life.
    The worst case of this type I know is Zheng Enchong's. He 
already served three years in prison. He also finished one year 
of restriction on his political rights. Nevertheless, he is 
daily living a nightmare in terms of being restricted, being 
beaten, having his family discriminated against. His daughter 
had to flee to America because the authorities made it plain 
she had no future in China.
    Zheng Enchong does not deserve this. He is a splendid 
person. I tried to visit him in 2006. Six policemen stopped me 
from going into his apartment. I kept saying to them, ``What's 
your authority for doing this? There's no legal basis for this 
that I know of.'' They simply said, ``We're police.'' I asked 
again and they said, ``We're police.'' I said, ``Look, in 
Shanghai you're always saying that you're better than the rest 
of the country with respect to the rule of law. `We're police' 
isn't a good enough answer.''
    So it makes me think, if Victor Li were to have a sequel to 
his stimulating 1977 book, called ``Law Without Lawyers,'' 
maybe we should call it ``Lawlessness Without Lawyers.'' If you 
don't have human rights lawyers, what you get is lawlessness.
    There are only a few minutes left. I just want to comment 
briefly on three other important aspects. One is human rights 
lawyers and political reform. There is an understandable debate 
going on in China among the human rights law community: should 
human rights lawyers take part in active political reform? 
Should they call for an end to the monopoly of power of the 
Chinese Communist Party? Or should they simply try to make the 
best of their bad professional situation, fighting for the 
public interest and human rights with one arm tied behind their 
back because of all the restraints they suffer?
    Most of the lawyers take the latter position. Gao Zhisheng 
did not. I talked with him about this and I said I admired his 
view that without political reform of a significant nature 
there never would be a genuine rule of law in China. But I also 
said, ``If you take this position in public, you're not going 
to be available to help people any more. You're not going to be 
on the street.'' Within four months, he wasn't, and he has 
suffered terribly.
    Some other ``rights'' lawyers take the view that they are 
professionals, not political figures. Yet they're not merely 
like dentists, they recognize the need for law reform. They 
take part in legislative reform. They handle individual cases 
the best they can. Most of them remain on the street, and even 
though they're punished in the ways I've indicated, this 
valiant group continues.
    Mo Shaoping has been the embodiment of the professional 
lawyer who publicly keeps his nose out of politics. Yet even he 
was so frustrated last year that he signed the famous Charter 
08, which surprised people. But I think he will continue to be 
in the professional mode, not looking for active political 
reform and leaving that to others.
    There are a lot of restrictions on lawyers' daily practice. 
Of course, this Commission has considered them before, and many 
people have written about them, including myself, and my 
statement refers to them. I won't linger on that.
    I will just say that the active human rights lawyers, not 
only in criminal prosecutions, are limited in what they're 
allowed to do and are subject to a considerable number of 
unfair restrictions. Many basic questions have yet to be dealt 
with, for example: should witnesses come to court in a major 
criminal case so they can be cross-examined or should the 
statement they gave the police be sufficient evidence and 
essentially unchallenged?
    There are also problems with supposedly ``non-criminal'' 
sanctions. The infamous laodong jiaoyang, ``reeducation through 
labor,'' for example. Lawyers have generally not been allowed 
to play a role in the process of determining whether somebody 
should be sent off for as many as three years of what amounts 
to criminal punishment under a different name.
    There is pressure now to try to improve the procedures 
because the Ministry of Public Security is desperately trying 
to retain ``reeducation through labor,'' which gives the police 
alone the power to put you away for as long as three years; no 
lawyer, no prosecutor, no judge is necessary.
    In reviewing such police determinations, there is a modest 
role for courts and lawyers but it is modest. Constitutional 
questions also are not open to lawyers at this point. The 
courts cannot consider them, the National People's Congress 
Standing Committee, which can, is not really functioning in 
this respect, so lawyers are also frustrated there. If China 
adheres to the International Covenant on Civil and Political 
Rights, the role of lawyers will be expanded, at least in 
principle, and we hope in practice.
    Just a final point about ``barefoot'' lawyers. The Chinese 
countryside is sadly lacking in legal services. Some counties--
a few years ago, 206 counties--had no lawyers whatever. People 
need legal advice. ``Barefoot'' lawyers are one response to 
this, people who do not have formal legal education and are not 
qualified lawyers, but who, nevertheless, can play a role when 
regular lawyers fail to do the job. Unfortunately, some members 
of the legal profession oppose ``barefoot'' lawyers. They think 
they'll only make the reputation of lawyers worse regarding 
corruption and incompetence.
    I think that is short-sighted. I think we should follow the 
example of the former dean of Tsinghua Law School, Wang 
Chenguang, in training ``barefoot'' lawyers to play a role in 
the rural areas, otherwise people in the countryside will often 
have no way to challenge arbitrary rule, whether it's a 
question of arbitrary taxation, land deprivation, or whatever.
    There are many questions that ought to be considered here, 
and I am grateful to the Commission for giving us the 
opportunity to discuss them. Thank you very much.
    [The prepared statement of Mr. Cohen appears in the 
appendix.]
    Ms. Oldham-Moore. Thank you, Mr. Cohen. Commissioner Pitts 
had to go vote. He'll be back.
    Nury Turkel has an obligation that he cannot avoid. He'll 
give brief remarks, and then he unfortunately has to depart.
    Please, Nury.

 STATEMENT OF NURY TURKEL, ATTORNEY WITH KIRSTEIN & YOUNG, PLLC

    Mr. Turkel. Thank you very much for organizing this panel 
discussion.
    I'm going to use one minute of my time to clarify a couple 
of things about what is happening in Urumqi. First of all, we 
oppose any type of violence for any reason. I'd like to make it 
absolutely clear that the Chinese Government's accusation of 
Uyghur organizations instigating the incidents in Urumqi is 
false.
    The other point I'd like to clarify is the number of 
casualties. The government says 156 deaths. They haven't broken 
down the ethnic numbers. From what we heard through a Radio 
Free Asia interview with a Uyghur individual from Urumqi, 
several hundred Uyghurs have been shot in front of Xinjiang 
University, Xinjiang Medical University, and in Central Square.
    I wanted to clarify another point. The Guangdong incident 
sparked the incidents but that's not the only reason as to why 
the Uyghurs took to the streets to demonstrate. In the last six 
decades, particularly since 9/11, the Uyghurs lose out on every 
front; political, economic, and social.
    Considering the Chinese history of heavy-handed and brutal 
crackdowns on political dissenters, the Uyghurs took to the 
streets carrying the Chinese flags last Sunday. They did not 
intend to turn the demonstration into a violent incident. It 
turned into violence after the Chinese started firing tear gas 
and shooting at the demonstrators. The demonstration was mostly 
organized by students. A week ago, the Turkish President 
delivered a very interesting speech at Xinjiang University and 
most of the students who participated in the demonstration were 
from Xinjiang University.
    Today, we're discussing the lack of access to lawyers and 
Chinese Government harassment of rights lawyers in China. I'd 
like to point out that there will be a mass arrest, torture, 
and execution in the coming weeks and months. Those detained 
and accused will not have access to fair judicial process or 
lawyers.
    Speaking of which, the Uyghur political prisoners or 
demonstrators participating in the 1997 uprising in Ghulja are 
still languishing in prison. I don't believe that any of them 
have had access to fair judicial process. I had a chance to 
interview two of the former political prisoners who 
participated in the 1997 demonstration. One of them happened to 
be a former Guantanamo inmate who now lives in Albania. He said 
he didn't have any access to lawyers. He was subject to torture 
and long imprisonment.
    For Uyghurs, representing or being represented is extremely 
difficult, because anything Uyghurs have done could be easily 
translated into a political crime that is separatism or 
terrorism. So any Chinese or Uyghur lawyers cannot even get 
close to representing, or even talking to, the Uyghur prisoners 
in Chinese prisons. It's simply too risky to represent Uyghur 
cases.
    Recently, there has been one other legal need that has 
emerged for Uyghurs: losing their properties, particularly in 
Kashgar. As you may have read recently, the Chinese Government 
is demolishing the Old City of Kashgar, and that has resulted 
in many Uyghurs losing their real properties. And they're not 
being fairly compensated.
    When they ask for their lawyers' help, their response is 
that ``it's a government policy and if I represent you, I'll be 
in trouble. I cannot get involved, even though this is a 
property interests and compensation-related issue. If I 
represent you and go to the courts with you, then the 
government will take away my license. Sorry, I cannot help 
you.'' That has been a typical response from lawyers.
    Recently I've conducted interviews and found out that there 
are no Uyghur rights lawyers. Basically, there is no Uyghur Gao 
Zhisheng. There are some Uyghurs who represent cases involving 
petty crimes. As long as it does not involve criticizing 
government or criticizing government officials, the Uyghur 
lawyers take cases involving petty crimes.
    I'd like to use a few examples to highlight the situation, 
particularly the political prisoner situation in Xinjiang. The 
most famous case is the case of Rebiya Kadeer's children. They 
were initially taken into custody for tax evasion. When that 
happened, Rebiya Kadeer's family tried to get a lawyer. And 
most of them flatly rejected it because of her name, because of 
her family history.
    They initially thought that it might be all right to 
represent them since it was tax-related issues. Then later, the 
government charged Ms. Kadeer's sons for crimes of separatism 
and endangering state security. They made the lawyers keep 
their hands off the cases. So one of her children was sentenced 
to seven years in prison and the other one was sentenced to 
nine years in prison.
    One other famous case involves a Canadian citizen--his name 
is Hussein Celil--who traveled to Uzbekistan with a Canadian 
passport. At the request of the Chinese Government, he was 
deported to China. To this day, Canadian officials, Canadian 
lawyers cannot get access to him. It's been more than three 
years since his arrest. A couple of years ago, he was sentenced 
to life in prison.
    I talked to his lawyer last week. His name is Chris McLeod. 
He said he even tried to hire a local lawyer, with the help of 
a group of Falun Gong practitioners who have access to a local 
rights lawyer. They invited the Chinese lawyer from Beijing. 
But that courageous lawyer was harassed and even received death 
threats. His family was upset that he's representing a 
separatist and terrorist. Then the lawyer backed off.
    So I wish I could tell you good stories. But there's 
literally nothing good coming out of the Uyghur region. Last 
night I was doing research to find out what is happening to 
this brave ``barefoot'' lawyer that Professor Cohen was 
mentioning. His name is Ilham Tohti. He is an economics 
professor at Beijing Nationalities University. He has been an 
outspoken critic of the Chinese officials in Urumqi. His point 
is that China has a constitution and autonomy laws. These 
officials, including Nur Bekri and Wang Lequan are making it 
difficult not only for the Uyghurs, but also the central 
government. They are the root cause of all the Uyghur 
resentment and ethnic tension.
    He is the owner of a blog that the Chinese Government has 
accused of being used by the so-called separatists and rioters 
to plan Sunday's demonstration. We've found out last night that 
he has been taken away. We don't know his whereabouts. He said, 
right before his arrest on his blog, that ``I always tell 
myself to be cool, calm, and make rational analysis. Going to 
the courts to resolve disputes is something that should be 
lawful in this society. I am my own lawyer. When my trial comes 
up, they'll appoint a lawyer for me. I will not trust the 
government to appoint a lawyer.''
    I'd like to end my remarks there. Thank you.
    Ms. Oldham-Moore. Thank you, Nury. We're very grateful that 
you were able to get here today. I know you had a number of 
other obligations. Thank you.
    Professor James Feinerman, we're honored to have you. 
Please go ahead.

   STATEMENT OF JAMES V. FEINERMAN, PROFESSOR OF ASIAN LEGAL 
 STUDIES, GEORGETOWN UNIVERSITY LAW CENTER, CODIRECTOR, ASIAN 
                 LAW AND POLICY STUDIES PROGRAM

    Mr. Feinerman. Thank you. I am very glad that I'm here 
today and that the Commission has convened this roundtable on 
this very important topic. I'm grateful to Representative Pitts 
for coming here and demonstrating with his presence the 
importance that is attached to this issue. I am, of course, 
very glad to be here with my colleagues on the panel, 
particularly my teacher and mentor, Mr. Cohen.
    I am glad that he began by both quoting Victor Li--I'll 
come back to that in a second--and by saying that he was going 
to depart from his prepared remarks. I have some too, and I 
will likewise depart from them since you can read what I had to 
say there, and I will try to summarize them and hit a few other 
points along the way in the brief time that is allotted to me.
    I am glad that Jerry mentioned Victor Li because I actually 
spoke before another hearing of this Commission about five or 
six years ago, and the title of my presentation then was 
``Lawyers Without Law,'' turning around the title of Victor's 
famous book. The point that I was making then, which I think is 
still valid today, is that China has lawyers. It has lots of 
lawyers compared to what it had when Victor wrote his book, and 
even for decades afterward.
    But the point is that they don't really operate in a system 
which has the rule of law that makes the practice of what they 
do meaningful in the sense of promising justice to the widest 
range of the Chinese citizenry, although many lawyers do what 
lawyers do in this country and many other countries in 
representing clients in court and carrying out business 
transactions and advising people about things like taxes and 
family law.
    But what is missing is the sense that there is an 
obligation on the part of lawyers and the organized bar in 
general to do something about the overall enjoyment of justice 
by the citizens of their country. I think that that's an 
important thing to take home from the presentations that you're 
roundtable today in a variety of 
different circumstances, whether it's the mistreatment of 
ethnic 
minorities in Xinjiang, whether it's the continuing illegal 
harassment--even given China's constitutional law--of religious 
practitioners, or some of the other cases that I'll talk about, 
highlighting what is in my prepared remarks.
    I think it's also an important event to have this 
roundtable today, this month, because this month marks the 30th 
anniversary of China's determination to embrace the rule of 
law. Often the criticism that China makes or tries to deflect 
when it is criticized by others for lacking the rule of law is 
that this is a Western concept and we don't really have to 
explain ourselves. We're our own country, we have our own 
sovereignty, we have our own very long historic tradition, and 
we do things our way, you do things your way.
    But I think as the embrace of the rule of law that began 
with the publication of China's first seven laws, really after 
the establishment of the People's Republic of China in 1979 on 
July 1, illustrates this is a choice the Chinese have made 
themselves. If they believe in their own propaganda, they have 
to then follow the laws that they've created for themselves.
    It just isn't on to say that we can violate our own 
constitution because we're the final determiners of what it 
means. That's an objective document that other people are 
perfectly qualified to interpret and to call them out when it's 
clear hypocrisy as to what the Chinese are actually doing with 
regard to their own legal system.
    But the fact that they decided to embrace law those three 
decades ago indicates that there is a need to create, and China 
did create, courts and lawyers to practice before them. So let 
me just briefly note those two things. China revived a system 
of courts that it actually had for a short period in the 1950s. 
In fact, Professor Cohen's famous book about the criminal 
justice system described what existed in lieu of formally 
organized criminal courts in that brief period of embrace of a 
Soviet legal model in the 1950s and early 1960s.
    But when China passed these new laws in 1979, one of those 
laws was an organic law for the organization of People's 
Courts, and it made it clear that there was going to be a court 
system, including a full hierarchy of trial courts, appellate 
courts, and even a Supreme People's Court, that was going to 
operate in a different way than the justice system had operated 
previously.
    But coming down to today, we can see that the court system 
has been consistently underfunded, starved of resources. The 
first judges, almost for two decades, were very poorly trained, 
often demobilized military officers and former police 
officials. You can just imagine what kind of justice a 
judiciary made up solely of those sorts might mete out. It's 
only really been in the last decade that legally trained 
graduates of university law faculties are beginning to assume 
important roles in the bench.
    Just this past year, China removed a well-qualified, 
highly-trained former chief judge, the Supreme People's Court 
president, Xiao Yang, and replaced him with a totally 
unqualified Party hack who has no legal training, Wang 
Shengjun. As a result, the legal system is headed at the top by 
someone who lacks genuine legal qualifications and commitment 
to the rule of law, although we can guess from his Party 
background what he's probably committed to.
    Also, as for lawyers, China went from a handful, fewer than 
a couple of hundred lawyers in 1979, many of whom had been 
trained even before the 1949 Communist takeover, to a system 
today that boasts somewhere between 130,000 and 140,000 
lawyers.
    But what do those lawyers do? What were they trained to do? 
Here, I don't mean to unjustly criticize China. In this country 
and many other countries as well, it's only a small handful of 
lawyers who go into what we call pro bono representation, 
representing unpopular causes, doing the Lord's work, so to 
speak, in areas like dealing with human rights victims, taking 
seriously violations of human rights, calling their own legal 
systems to account.
    It isn't lucrative, it isn't remunerative as law practice 
in other areas can be. Even in countries other than China it 
can be fraught with dangers, some not quite so dire as they are 
in China, but dangers nonetheless, including possible threats 
to the lawyers themselves and their families.
    But in China, it's been pretty clear that they have moved 
from a system where every lawyer was a state legal worker 
working in a state-run legal advisory office to a system where 
there are, today, private law firms. I was looking at the Web 
site of one of them 
yesterday that had offices or corresponding relationships on 
five continents, every bit as big and all-embracing as the 
largest multinational law firms based in New York or London.
    It's clear that lawyers in China may be doing something 
very different than what we might hope, at least a reasonable 
representation of them would be doing with regard to protecting 
their citizens' rights. And here I'll just tell you two 
anecdotes that I think reveal what is actually been the rule 
with lawyers' training in China.
    I remember going when I was a young associate myself in New 
York to an event at Columbia Law School that was organized by 
our colleague, Professor Randle Edwards. He had hosted the 
first group of Chinese who had come to be trained in law. This 
was 1981. The legal profession hadn't really been 
reestablished. None of these people had been trained as 
lawyers, but they were going to be expected to return and do 
law-related jobs in China. They spent four months at Columbia 
Law School getting a very thorough introduction to American 
law, and then they spent six months in New York City law firms 
learning what lawyers did, shadowing senior lawyers, and seeing 
a range of legal practice.
    At the reception, the oldest of them, who later went on to 
become the head of the All China Lawyers Association, a man 
named Gao Zongze, handed me his card. The card had his name on 
it, and underneath in English it said ``senior partner.'' I 
turned it over to see what it said in Chinese, and the 
translation was something like, ``high-class lawyer.'' 
[Laughter.]
    I said, ``Mr. Gao, aren't you a little worried about going 
around representing yourself as a partner? '' Chinese lawyers 
don't practice in law firms. Law firms aren't partnerships. 
There is no partnership law. He said, ``Well, I learned one 
thing in the six months that I spent at my New York City law 
firm.'' I was eager to learn what that was. I said, ``Oh 
really? How interesting. What was that? '' He said, ``The only 
people who get respect are senior partners.''
    So, if that's what it took, that's what he was going to 
call himself. He went on to quite a career as a practicing 
lawyer in China, but I think that on his agenda, and on the 
agenda of the organization that he headed, the human rights or 
civil rights of Chinese citizens was quite low, maybe even non-
existent.
    Likewise, I'd just mention, a few years later in 1991, 
actually, when I went back with the leadership of the American 
Bar Association to meet with our Chinese counterparts--it was a 
visit much-delayed for two years because of what happened in 
Tiananmen Square in 1989. We were meeting with people who 
purported to be the organizers of the first genuine private law 
firm in China. The firm is called Jun He, and it's gone on to 
some prominence in Chinese legal practice.
    The incoming president of the American Bar asked one of the 
lawyers, a young man who had been trained at UCLA Law School 
and obviously had some experience in the United States before 
going back to China, whether or not someone like him or someone 
from his law firm would take on the representation of the 
various defendants that were accused of misdeeds in Tiananmen 
Square.
    He very quickly saw his opening, leapt up and said, ``No, 
no. You have to understand that given the training that we've 
had and all the advantages that we have and what we've learned, 
having us do that kind of work would be like having a brain 
surgeon do veterinary medicine.'' The room got very quiet and 
the incoming president became very red-faced. He was a former 
dean of the Florida State University Law School and a partner 
in a Miami law firm. He said, ``I'm the incoming president of 
the American Bar Association and senior partner at Steel, 
Hector & Davis, and I do veterinary medicine.'' [Laughter.]
    So the young man realized he had misstepped and tried to 
pull back, but it was pretty hard to retreat.
    In the few moments that are left to me, let me just tick 
off the few things that I think are worth highlighting from the 
center of my report that you have before you. The first is to 
focus on the steps that the Chinese have been taking with 
increasingly virulent results to try to discourage lawyers from 
taking on these representations. It begins with harassment. It 
leads, in some unfortunate cases, to severe beatings, some that 
are permanently disfiguring and crippling to the Chinese 
lawyers who experience them.
    It has also involved detention and jail, the illegal 
detention that Professor Cohen described with people such as 
Gao Zhisheng, but also criminal charges and jail terms, totally 
unjustified by all rights, and then recently this non-renewal 
of licenses, which basically destroys the livelihood and any 
future promise of these people returning to practice.
    Likewise, the range of cases that I talk about in my 
prepared remarks is remarkably broad and it doesn't even cover 
the waterfront. You'll hear from other people on this panel 
about things that I don't mention, but people who, for example, 
took on representation of the Falun Gong, people who 
represented other disfavored groups--some of them, by the way, 
these representatives, these rights defenders, are not even 
trained lawyers.
    Hu Ja, who took on the representation of HIV patients, was 
not a lawyer by training but has suffered the same kind of fate 
because he took as his cause defending the rights of these 
people because there are very few lawyers who are willing to 
take them on as clients in China.
    The absolute prohibition, really, by legal means of class 
action lawsuits, a guiding opinion that was issued in 2006 that 
basically says you have to get permission if you want to 
represent more than 10 clients collectively, makes it 
impossible for large groups of aggrieved citizens to get 
together and seek legal representation. There are problems with 
those who have tried to defend people who have suffered 
grievous wrongs, for example, the tainted food and baby formula 
cases, or the Sichuan earthquake cases--the parents, family 
members of victims there.
    The lawyers have been brought together and told in no 
uncertain terms that they are not to represent these people, 
that if they do represent these people there will be serious 
consequences, and that they should think not of human rights, 
civil liberties, or even provisions of Chinese law, but rather 
creating a harmonious society and making sure that there is 
national unity, doing nothing to damage the overall impression 
that the situation is excellent and constantly improving.
    So at the very last, I would just mention three things that 
I think we should do. This goes a little bit beyond my own 
prepared remarks' conclusion. First, is I think that the 
American Bar Association and other bar associations, state and 
local, and bar associations in foreign countries as well, 
should voice their concerns about this, develop resolutions, 
and make it clear that we have our counterparts in China and 
we're concerned about them. I don't think that this has been 
done enough to bring home the seriousness. China would respect, 
for example, the prominence of American lawyers who occupy a 
somewhat different and more protected position in their society 
than lawyers do in China.
    I think, second, the United States and other foreign 
governments should make it clear through their foreign 
ministries, through their ministries of justice, and also 
through their congresses and parliaments, as Representative 
Pitts has done here, that this is a matter of great concern to 
political leaders and this is something that we will take 
seriously in our future dealings with China if they don't make 
some progress on this front.
    Finally, I think that, as with fora like this here at the 
Commission, that in every other place where we can possibly get 
a hearing it's important to keep up the publicity and the 
outreach to people who are in these dire circumstances in 
China. I know Professor Cohen, for example, and a number of my 
counterparts, law professors in the United States, have done 
our best to try and make sure that we remain in contact in 
whatever way we legally can with our Chinese colleagues, 
especially those in the practicing bar who have experienced 
these very severe repressions.
    But it's hard, and it requires persistence. It will be 
helpful to have a lot of other people doing this work as well 
rather than relying on just a small group of interested people 
who have been trying to carry out this enterprise under very 
adverse circumstances for, unfortunately, a very long period of 
time.
    Thank you.
    [The prepared statement of Mr. Feinerman appears in the 
appendix.]
    Ms. Oldham-Moore. Thank you, Mr. Feinerman.
    Before turning to Bob Fu, at 11:10 we'll open the floor to 
questions from the audience.
    Bob, please begin. Thank you.

 STATEMENT OF BOB (XIQIU) FU, FOUNDER AND PRESIDENT, CHINAAID 
                       ASSOCIATION (CAA)

    Mr. Fu. Thank you. Thank you for the invitation to this 
panel with Professor Cohen, Professor Feinerman, and Mr. 
Turkel. I very much appreciate the hard work and concern of the 
CECC Commissioners, including Congressman Pitts and many 
others, and, of course, the CECC senior staffers.
    I have been involved with the training of human rights 
lawyers, especially in the areas of international law, since 
2004. We actually invited the first delegation, in 2005, to the 
United States. We had some training with the NYU Law School. 
Professor Cohen has been involved.
    Recently I have been receiving many messages from lawyers 
in China about their license cancellations or their licenses 
have not been renewed by the Beijing Lawyers Association. This 
is not only unnecessary and unjust, but also an unprecedented 
development. As far as I know, that we can confirm, so far, 19 
lawyers were already imprisoned and this year the 19 lawyers at 
this time are unable to practice their law. They are: Jiang 
Tianyong, Li Heping, Li Xiongbing, Li Fuchun, Wang Yajun, Guo 
Shaofei, Cheng Hai, Tang Jitian, Yang Huiwen, Tong Chaoping, 
Liu Guitao, Xie Yanyi, Wen Haibo, Liu Wei, Zhang Lihui, Zhang 
Chengmao, Zhang Xingshui, Wei Liangyue, and Sun Wenbing.
    These attorneys have always persisted in providing legal 
assistance for clients to safeguard their legitimate rights. 
The report I have seen, in an open letter to the Ministry of 
Justice on July 2, most clearly explains the situation with the 
license denials and points out the root problems and effects of 
this on the national level.
    This letter was written by 31 Chinese intellectuals, 23 in 
Beijing, 7 in other areas in China, and 1 Australian. I request 
that the full text of this open letter be entered into the 
record.
    Ms. Oldham-Moore. Yes.
    Mr. Fu. Thank you.
    I will read a few key points of this letter. It says,

        We think this case is entirely a violation of the law. 
        As a social organization in the legal industry, the 
        Beijing Lawyers Association has no right to restrict or 
        deprive its members of their right to practice. In the 
        past, there were cases in which the Beijing Lawyers 
        Association deprived some human rights lawyers of their 
        qualifications to practice, but that was considered an 
        illegal overstepping of its authority. Now it has 
        forced many law firms to stop the practice and made 
        several hundred lawyers unable to practice, which is 
        all the more astonishing. Such illegal, absurd, and 
        perverse acts that violate common sense will bring 
        serious, bad consequences to society.
        On July 18, 2008, the Ministry of Justice promulgated 
        management methods in attorneys' practice and 
        management methods on law firms which officially 
        annulled the annual registration system of the 
        attorneys. This time, the Beijing Lawyers Association 
        issued a notice and changed ``registration'' to 
        ``register'' and totally disregarded the principles of 
        the Ministry of Justice in that the specific methods 
        for annual evaluation shall be provided by a Ministry 
        of Justice.
        First of all, it will further worsen the environment 
        for rule of law in society by taking advantage of the 
        authorization from Beijing's Bureau of Justice and the 
        Beijing Lawyers Association suppresses and takes 
        revenge on human rights lawyers as it wishes. Most of 
        these attorneys are top-notch, outstanding attorneys 
        who have the highest awareness of the rule of law among 
        10,000 attorneys in Beijing.
        Second, cancellation of licenses of a large number of 
        attorneys has undermined to a great extent the 
        strategic elements for building a harmonious society.
        Third, canceling the right to practice of so many 
        rights defense attorneys is a provocation on the social 
        conscience.

    The first part of my recommendation for the congressional 
response is to base the response on this recommendation from 
this open letter to the Ministry of Justice. It is a very 
clear, straightforward framework on which I think U.S. 
congressional response to Beijing can be based.
    I will read part of this recommendation letter, the 
recommendation from the open letter. It says,

        It is our belief that as the highest traditional 
        administrative organ of our country, the Ministry of 
        Justice should not ignore such a violation of law by 
        the Beijing Municipal Bureau of Justice and the Beijing 
        Lawyers Association, worsening the environment for rule 
        of law, undermining the social harmony, and challenging 
        the social conscience.
        We hope the Ministry of Justice can, in the principle 
        of upholding the spirit of the rule of law as proposed 
        at the 17th People's Congress, order the Beijing 
        Municipal Bureau of Justice and Beijing Lawyers 
        Association to withdraw their decision, correct their 
        mistakes, and restore the rights lawyers' right to 
        practice, and apologize to the people in various 
        circles of life so as to solve this problem in a fair, 
        reasonable, and legal way.

    I appreciate the clear statements in this letter which 
really explains not only their concern, but also the national 
effects of these licensed denials. The effects which ultimately 
concern--especially because unfortunately they show an utter 
disregard for the rule of law by the largest country in the 
world.
    One question to be addressed by this panel is, what is the 
relationship between these lawyers, the Chinese Government, and 
the Chinese Communist Party? This brings up an intriguing point 
because these human rights lawyers have been moving forward 
according to the proposal from the 17th People's Congress to 
promote the spirit of the rule of law and the realization of 
the rule of law in various jobs of state.
    A simple list has been compiled of each lawyer whose 
license has been revoked or not renewed and the important 
incidents and the cases the lawyers have been involved with, 
and the categories mentioned in this list, including the 
poisonous milk incident, the abnormal deaths while the victim 
was in custody, representing house churches and Falun Gong 
practitioners, and reeducation through labor cases, the rights 
of migrant workers and ethnic minorities, and rights of HIV 
patients, and the cases of underground brick kilns in Shanxi 
Province.
    Which of these cases should the government shrink from 
having represented by a professional lawyer? Does not rule of 
law necessitate the vulnerability to transparency? Transparency 
and the rule of law, in some of these cases, might necessitate 
acknowledgement of unjust measures or inappropriate use of 
authority. That is unfortunately a consistent possibility in 
any government because of human nature. What is not a necessity 
or acceptable is repression of lawyers who are implementing the 
rule of law.
    So, I will mention briefly about Gao Zhisheng's case. 
Professor Cohen already mentioned it, but we have launched a 
campaign called FreeGao.com, a campaign since March. So far, we 
have received over 102,000 signatures up until today, from 
Bosnia to Saudi Arabia, from Turkey to Zimbabwe. People from 
all over the world signed to urge the Chinese Government to 
tell us where Gao is and what his condition is about.
    So of course, these developments strengthen the play of the 
U.S. Congress, to publicly affirm the truth and justice, 
investigate these issues. I understand, after meeting with the 
chairman, Congressman Jim McGovern, who is the chairman of the 
Tom Lantos Commission, he will write a joint letter, along with 
a Member of Congress, today or tomorrow to send to the Chinese 
Ambassador to ask the whereabouts of Mr. Gao.
    Finally, I want to urge the Obama Administration officials 
and the senior U.S. diplomats at the Embassy in Beijing to 
publicly, regularly, and frequently meet with these freedom 
fighters in and outside China when they are available.
    Ms. Oldham-Moore. Thank you.
    Mr. Fu. Thank you.
    [The prepared statement of Mr. Fu, the Open Letter, and the 
Final Compiled Translated Lawyers' Statements appear in the 
appendix.]
    Ms. Oldham-Moore. The ChinaAid Association has done a 
tremendous job raising the profile of the Gao case on the Hill. 
Thank you.
    We're delighted to have Congressman Wu with us. It's nice 
to see you, sir. He's just rejoined the Commission this year. 
So, we're delighted to see you here today.
    Now at this stage in the proceedings we open it up to the 
audience for questions.
    Congressman Wu, would you like to say something?
     Representative Wu. No. I think I will----
    Ms. Oldham-Moore. I think we hijacked you.
     Representative Wu. I will listen very happily to the Q&A 
for as long as I can before my next obligation.
    Ms. Oldham-Moore. Terrific. Thank you so much. The first 
question from the audience. Do we have anybody? Yes, sir; in 
the front.
    Audience Participant. Thank you. Mr. Feinerman, you've 
commented that you felt it was necessary that American lawyers, 
bar associations, and so forth get involved in this process to 
try to help the situation, rights defenders. I've been trying 
to work on that for about a year now with Dr. Fu and we're not 
having a lot of success. Do you have any suggestions on how we 
get these bar associations to come on board and understand that 
lawyers across the world are our brothers and sisters and that 
we need to let them know that we will stick with them?
    Mr. Feinerman. Well, I have two practical suggestions based 
on my own experience doing this. Twenty years ago in the 
aftermath of Tiananmen, we did get the American Bar 
Association, as well as the New York City Bar, to make 
statements that were formal resolutions adopted by the Bar 
Association and such about what happened in the aftermath then. 
I think that the time has come to try and refire those sorts of 
connections.
    Bar associations in general usually have two ways of doing 
this. One is to contact the top bar leadership, the executive 
director or whoever is in charge of the bar association, and 
try and get a resolution on the table, usually at their annual 
meetings, but sometimes they can do it outside of that forum as 
well.
    Then second, they almost all have at least one committee, 
and sometimes multiple committees, that are involved with 
questions of human rights, contact with foreign bars. The 
American Bar Association, for example, has as one of its 
enumerated goals Goal VIII, which is fostering the rule of law 
around the world. So, there is a Goal VIII group inside the 
American Bar Association, but there is also a separate 
committee on individual rights and responsibilities.
    The Section on International Law has a China law group, 
although because of their interest in pursuing practice and 
contacts with China and clients both in the United States and 
China who want to stay on the right side of the government, 
they may not be your first point of contact or your best ally 
with regard to this.
    But I agree, there are like-minded people in these 
organizations, even in the China law subcommittees, who would 
say that this has reached such a stage and the conduct is so 
outrageous, that we believe a general statement that talks 
about the kinds of concerns that lawyers abroad have for their 
counterparts in China is certainly well within the limits that 
even a restrictive government might place on those kind of 
undertakings.
    Ms. Oldham-Moore. Thank you.
    Yes, sir? Congressman Wu, then Jerry Cohen, I know, wants 
to say something.
     Representative Wu. If I may just add a point to that 
response. I'll just speak up a little bit. When we were dealing 
with the Pakistani situation where lawyers were taking such a 
leading role, I found that law schools were especially valuable 
venues and many of the deans were quite amenable to contacting 
their faculty. One might find a little bit more hesitation in 
those law schools that have extensive programs in China, but I 
think that the academic community is a good source of help in 
addition to the bar organizations.
    Thank you.
    Ms. Oldham-Moore. Thank you.
    Professor Cohen?
    Mr. Cohen. I think those ideas we just heard from both 
speakers are excellent. Committees have formed in various 
places to try to be helpful. Hong Kong has taken the lead with 
its human rights lawyers group to support Chinese human rights 
lawyers. The Taipei Bar Association and the Taiwan Bar 
Association have been supportive. The International Bar 
Association has just issued a good statement about the problems 
of Chinese lawyers. In New York, our city bar association has 
an active human rights committee and a committee on Asian law 
that are concerned.
    A group of us in New York last year formed a Committee to 
Support Chinese Lawyers that is centered at Fordham University 
Law School's Leitner Center. It does just what the Congressman 
has said should be done. The American Bar Association [ABA], of 
course, does very good work in Chinese law reform, including 
human rights, criminal justice, lawyers' problems, and that is 
to be commended. NYU Law School cooperates closely with the ABA 
in this respect.
    I think our deans and our university presidents have to 
seize more occasions. For example, this year there will be a 
number of anniversaries of Chinese law schools being 
established 30, in some cases, 100 years ago. American deans 
are invited. I think, instead of passing up those occasions, 
they should participate and make very strong statements about 
the importance of protecting human rights lawyers and the 
importance of protecting law faculty people who not only teach, 
write, and publish to the extent they're allowed to, but often 
take part in active cases and therefore suffer sanctions. So I 
think this is a very good question to have raised.
    Ms. Oldham-Moore. Thank you.
    Next questioner. Jim Geheran is up next.
    Mr. Geheran. Hi. Jim Geheran--questions to Professor 
Cohen--lawyers do not--characterize--the situation in China. 
One of the issues that I see before us as--China is that our 
foreign policy tends to compartmentalize the issue of human 
rights and we fail to see--to make human rights the centerpiece 
of our foreign policy in regard to--this morning--essentially 
exists in terms of, without the rule of law--make a conforming 
argument to support the statement that--that the world 
community should not rely on countries who do not rely on their 
own citizens.
    Ms. Oldham-Moore. Okay.
    Mr. Geheran [continuing].--That statement really supports--
--
    Ms. Oldham-Moore. Thank you.
    Professor Cohen?
    Mr. Cohen. Well, we have witnessed the struggle of every 
new Federal administration in this country to adopt an 
appropriate human rights policy, one that will be good across 
the board, that is not selectively applied. One complaint China 
has sometimes justifiably made is that we're very selective in 
our targets for human rights. We neglect many of our friends, 
so-called, for their human rights violations but we focus only 
on certain other countries. So, consistency is important.
    Second, our own behavior is crucial. I think one of the 
most profound things anybody has ever said was the Scottish 
poet Robert Burns, who said, ``Oh wad the Lord, this giftie gie 
us to see oursels as ithers see us.'' Our own conduct, 
especially recently in the Bush Administration, the second Bush 
Administration, has made us very vulnerable to charges of 
hypocrisy when we start to point out the human rights 
weaknesses in other countries.
    I think one good thing China has done is to issue an annual 
human rights report on U.S. Government behavior. As long as 
it's factual, I think it's very helpful. If it's merely 
propagandistic, one-sided, et cetera, then it isn't. But we all 
benefit from criticism of that nature. Our own conduct is very 
important.
    Now, we've watched Secretary Clinton try to come to grips 
with the question, where does human rights in China fit into 
our broader China needs, because we need Chinese cooperation 
just as China needs our cooperation? I'm hoping to see a more 
vigorous, case-oriented discussion between the United States 
and China and one that will include not only government 
officials from both countries, but also non-officials who are 
more specialized, who have more knowledge than officials.
    This Commission could recommend an idea that was floating 
around the State Department at the end of the second Bush 
Administration, which would be to initiate a real human rights 
dialogue, one that discusses concrete cases. Chinese officials 
love to talk in the abstract. They don't like to deal with 
concrete cases. In the extreme case of Gao Zhisheng, we see 
they're not prepared to tell the truth even if they choose to 
respond on concrete cases, but I think this would be important 
for the Commission to encourage that kind of dialogue.
    Ms. Oldham-Moore. Thank you.
    Kara Abramson, please.
    Ms. Abramson. Thank you. Kara Abramson with the 
Congressional-Executive Commission on China. I will direct this 
question to Mr. Cohen.
    I understand the sensitivities of working on an issue like 
Xinjiang, which you raised in your testimony, but many issues 
are sensitive. Falun Gong is sensitive, and yet lawyers take on 
cases defending Falun Gong. So my question is, as rights 
defense lawyers pursue sensitive cases despite the risks, why 
are they not actively pursuing cases involving Xinjiang. I 
recognize that cases involving issues like separatism are 
extremely sensitive, but I wonder if there might be areas where 
there is room to push the envelope, such as cases involving 
employment discrimination based on ethnicity. I am interested 
in hearing your thoughts on that, please. Thank you.
    Mr. Cohen. There are lots of needs in China for lawyers 
that are not yet being filled. You're pointing out some of 
them. Labor law is an opportunity. There are a number of firms 
operating not only from the management side, but from the 
migrant labor, the human rights, side. But there is much more 
that can be done.
    Environment. Think of all the environmental challenges 
China confronts and the role that litigation might assume. 
Litigation that is happening is interesting, important, but 
merely a drop in the bucket. Every issue you turn to needs much 
more Chinese legal talent. The problem is how to create the 
conditions that make it attractive, not merely permissible, for 
lawyers to take part in these matters.
    Professor Feinerman has alluded to the fact that most 
lawyers in China are not big moneymakers. There are some firms 
that do very well. They charge international-type fees, but 
they're a minority. Most lawyers are struggling to make a 
living. We have to 
figure out ways of making human rights practice possible, like 
compensating lawyers for successful environmental litigation or 
successful labor litigation. These ideas are gradually 
developing.
    So there's a law practice area between a commercial 
practice with no political implications and a human rights 
practice that deals with things that are highly sensitive, like 
Falun Gong or democracy. There's quite a broad area of 
important cases, including open government information, where 
the Chinese Government is not necessarily going to be 
oppressive and where it increasingly will see the benefits of 
having law and lawyers.
    Ms. Abramson. Thank you. Do you think that as this space 
you've discussed opens up, there will be more of an interest in 
pursuing cases in Xinjiang, particularly in less sensitive 
areas like employment discrimination?
    Mr. Cohen. As has been pointed out, the attempt to use 
lawyers in Xinjiang, Tibet, Mongolia, these highly sensitive 
so-called ``separatist'' areas, has proved to be very 
difficult. The Communist Party is led by people who do not have 
much understanding of the rule of law. Even Li Keqiang, a 
member of the Politburo Standing Committee who is a graduate of 
Peking University Law School in the class of 1982, has not 
taken a law reform role.
    The people who run the legal system are police and Party 
activists who reflect their experience. The head of the Chinese 
Communist Party Central Political Legal Committee is the former 

Minister of Public Security. He doesn't know much about law, 
but he knows what he likes. What he likes is ``harmony.'' They 
are quick always to use repression as the way to give the 
appearance of harmony.
    The new head of the courts is not a legal specialist but a 
party person who is there to reinforce party controls on the 
courts. The new head of the Ministry of Justice is a Party 
Apparatchik, a nice woman who really hasn't got much interest 
in the kinds of problems we're discussing today or much 
sensitivity about them. This is too bad.
    So the prospect immediately after the 17th Party Congress 
has not been good for promoting the kinds of things we 
eventually hope the Party leadership will come to see. There 
will someday be leaders in the Standing Committee of the 
Politburo of the Party who will see the importance of better 
legal institutions to stability, to harmony. We've been through 
this in South Korea under General Park. We've been through this 
in Taiwan under Chiang Kai-Shek. Dictators always talk about 
stability and therefore the need for repression, but eventually 
modernization comes, education, many other factors, and we see 
their successors take a more enlightened view. In the Communist 
system you never know what the highest leaders will do until 
they become the highest leaders.
    Nobody knew what Khruschev would do before he introduced 
de-Stalinization in 1956. Nobody knew what Gorbachev, who was 
trained in law, would do based on his previous record until he 
got to the top. Someday there will be leaders in China's 
Politburo who will try to do for law what Zhu Rongji did for 
economics and economic reform. We have to rely on that. There's 
enormous support for law reform and better legal institutions 
in the Chinese people now, especially the poorer people, the 
disenfranchised people, not the elite. Bourgeois law in the 
West has always resulted from the rising bourgeoisie. In China, 
the rising bourgeoisie, the entrepreneurs, resort to other 
methods. They are benefiting from the system. They don't want 
to use law, they use connections, they use money, et cetera.
    I remember asking the businessman-husband of a Chinese 
judge I knew: ``Do you ever use lawyers? '' He said, ``No.'' I 
said, ``Why not? '' He said, ``I don't need them for 
contracts.'' I said, ``What about disputes? Don't you have 
disputes? '' He said, ``I have a lot of disputes. But why would 
I use lawyers for disputes? My wife is a judge.'' [Laughter].
    Ms. Oldham-Moore. Thank you.
    Jim Feinerman, please.
    Mr. Feinerman. This is just a footnote on the question 
about lawyers in Xinjiang. I think there is a problem here both 
with ethnicity and language that needs to be recognized. The 
problem is a tri-fold one. On the first point, there are 
probably very few lawyers trained in Xinjiang, Tibet, or other 
ethnic minority regions in China who represent their own 
people, so having to rely on Han lawyers creates a problem. 
Second, the capacity of these areas in terms of courts and the 
ability to allow people to access the legal system, even having 
a well-staffed bar in those localities, is very poor compared 
to the rest of China, and that may be purposely so to limit the 
kinds of claims that people in those areas might make.
    Then finally, I think it is going to wait until people rise 
up from these groups to assume their place. In the United 
States, we had the great civil rights revolution that we had 
largely because we had black lawyers who were pursuing a cause 
that they were personally very invested in.
    With Thurgood Marshall arguing, you get a kind of 
representation that I think--even though very capable white 
lawyers were working behind the scenes and up front with the 
National Association for the Advancement of Colored People 
[NAACP]--other groups just couldn't do. I think that that is 
what has to happen in China for those groups, those ethnic 
communities to sort of feel that they have genuine access to 
the legal system.
    Ms. Oldham-Moore. Thank you. We're going to go for 10 more 
minutes.
    Audience Participant. Good morning. Thank you for allowing 
me. My son has been----
    Ms. Oldham-Moore. This is a question?
    Audience Participant. Yes.
    Ms. Oldham-Moore. Thank you.
    Audience Participant. My son has been imprisoned in China 
since March. We were just informed by the U.S. Consulate, so 
this is a very personal nature and I prefer not to introduce 
myself in a public forum.
    So the question is, is there a lawyer somewhere that can 
help our son be repatriated to come back home to the United 
States? We have the U.S. Consulate able to visit him once a 
month so far, but the letters that he has written us have been 
blocked from our eyes. Several Chinese lawyers have written to 
him, asking to represent him, but the prison authorities have 
blocked him from receiving those letters. So, there is only so 
much the U.S. Consulate can do. How do we proceed in the face 
of what this panel can share? Perhaps Professor Cohen, 
Professor Feinerman, or anyone would have a suggestion.
    Ms. Oldham-Moore. It's a complex question, and I've talked 
to your husband about this. Her son is in jail in China. She's 
having difficulty getting access to counsel. Her son has had 
consular access, with a good consulate officer. What should she 
do next?
    Mr. Cohen. Well, if you need help finding a good Chinese 
criminal lawyer, certainly some of us can make suggestions. 
That's the first thing one does. You're already getting the 
active help of the American Citizen Services Unit within the 
Embassy, I take it, or the local consulate. But the first thing 
is to try to secure Chinese legal advisors and then work with 
them.
    Audience Participant. It's really hard to know how to pick 
a Chinese lawyer, given all the things you've discussed about 
the limited role that they play and the limited freedom they 
have to practice their law. How do we, from here, pick one?
    Mr. Cohen. There are people who have lots of experience in 
this field, unfortunately.
    Audience Participant. That's wonderful. Thank you.
    Ms. Oldham-Moore. Yes. Thank you.
    Mr. Feinerman. Can I just add one thing about this?
    Ms. Oldham-Moore. Yes.
    Mr. Feinerman. This is not an uncommon experience, 
unfortunately. Professor Cohen and I were just quoted yesterday 
in an article in the Wall Street Journal involving business 
people who have been detained basically because contract 
negotiations didn't turn out in a way that was favorable to the 
Chinese party, and the solution was to imprison a Chinese who 
had foreign nationality, but was originally born in mainland 
China, and three Chinese employees, and basically say you're 
going to get out when we get the deal that we want.
    This is a big, multinational company that has access to 
high-class legal representation, has probably already retained 
lawyers both inside and outside of China to deal with this. So 
I wish I could offer you more consolation in that this thing 
will be resolved very quickly, but as you already know from 
your experience to date, this is something that can drag on for 
quite a while.
    It seems that justice will not be forthcoming, although 
sometimes the one word of positive advice I can provide is that 
if there's a pretext that allows a kind of face-saving way out 
for the Chinese, such as a medical condition that justifies 
parole or something like that, that often--so if your son has 
anything from diabetes to serious acne, I would say, start 
working that for all that it's worth, because that may be a way 
to say, we call on your mercy for medical leave. It's sort of a 
subterfuge and it doesn't address the underlying injustice of 
the system, but your main goal now probably is getting your son 
out and home.
    Audience Participant. Right. Thank you so much.
    Ms. Oldham-Moore. Thank you. Thank you.
    Professor Cohen, some last remarks, then we'll close down.
    Mr. Cohen. Yes. The first thing, and what you say makes me 
recognize the importance of stating it, is what kind of a case 
is it? If it's like this Australian case in which Rio Tinto 
executives are involved, the first question is, is it a ``state 
secrets'' case? If the State Security Agency or the Public 
Security Agency decides to call it a ``state secrets'' case, 
then the lawyer has no access unless the police agree to it, 
and usually the police don't until their investigation is over. 
It may take many months. At the point that their investigation 
is over and they recommend prosecution, often a lawyer can't do 
too much, and certainly is very limited.
    One of the troubling aspects of the Chinese system is that 
there is no effective means for challenging the ``state 
secrets'' claim of the investigators or the certification by 
the National State Secrets Bureau that any documents or 
information involved are indeed state secrets. That is why I 
hope that, in the revision of the state secrets law that is 
about to occur 20 years after the first one came into being, 
there will be some improvement, but it's not clear that that 
will be the case.
    Second, we need to consider the question of fairness, of 
how universal are standards of what we call ``due process.'' 
China now is awash in nationalism. There is a new Chinese 
pride, a new feeling of, ``we don't need these foreigners to 
tell us what to do, we'll do it our way.'' In principle, this 
may sound attractive, but in practice, in detail, what does it 
mean for fairness, for due process for a legal system? Will it 
meet at least the minimum standards of the world community? 
What do China's leaders and people want in this respect?
    I was just reading the memoir of Zhao Ziyang, who was, 
after the 1989 Tiananmen incident, put under de facto house 
arrest that lasted for 16 years, the rest of his life. What 
struck me was, although the press and the world rarely focused 
on this aspect, this was a case, of course, of administrative 
detention with no legal authorization. Law reformers generally 
worry about Chinese citizens losing their freedom for three 
years under ``reeducation through labor.'' Zhao in effect got a 
life sentence with no legal process whatever.
    Zhao Ziyang was the leader of China. He was Prime Minister. 
He was the boss. He was head of the Party, and a highly 
intelligent man who did a lot of good for China. When you read 
his memoir, you see the reaction of a Chinese leader to a total 
denial of due process. Zhao never went to law school, but he 
had no trouble recognizing in his own case that he wasn't given 
an adequate statement of the charges against him. He wasn't 
given anyone to advise him, to defend him. He wasn't given an 
opportunity for the hearing that he kept requesting.
    He wasn't given a statement of reasons of why he was being 
confined in this way and deprived of his rights under the Party 
Charter, as well as the national Constitution. When it happens 
to you, even if you're Chinese and the highest leader of the 
Party, or used to be, you have no trouble seeing a denial of 
due process of law, of fairness. These are universal values and 
demands.
    When farmers in 1958-1959 had their property taken away 
from them--kitchen implements, doorknobs, even--so that China 
could have metal for backyard furnaces to produce steel that 
was to enable China to overtake England--it was a crazy ``Great 
Leap Forward'' idea, of course--they knew, with no education at 
all, that they had been denied property unfairly. Most Chinese 
are like most of us when it comes to deprivation of liberty or 
property.
    We should respect China's call for recognition of its many 
virtues and accomplishments. On the other hand, what kind of a 
legal system is it going to have? If China's leader's say they 
will have their own, fine. But what is it, and how fair is it 
in the eyes of the Chinese people? That is the question that is 
still before the house 30 years after the initiation of the 
``open policy.''
    Ms. Oldham-Moore. Thank you, Mr. Cohen. There's not much 
else to say after that, except, thank you very much, Bob Fu, 
Professor James Feinerman, Professor Cohen, and also to our 
staff person, lead staffer on criminal justice issues, Andrea 
Worden, who was instrumental in putting this event together, 
but has a bad case of the flu and could not be present the 
entire time today.
    Thank you for coming. On July 30 the CECC will host another 
roundtable on press freedom. Jocelyn Ford from the Foreign 
Correspondents Club in China and her colleagues will be here, 
so it should be very interesting.
    Thank you very much. [Applause].
    [Whereupon, at 11:40 a.m. the roundtable was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                 Prepared Statement of Jerome A. Cohen

                             july 10, 2009
    I am delighted that the Congressional-Executive Commission on China 
is devoting today's Round Table to a discussion of China's human rights 
lawyers.
                  law without (human rights) lawyers?
    In 1977 Victor H. Li published a stimulating book entitled ``Law 
Without Lawyers.'' China's Communists, he suggested, because of their 
country's distinctive tradition and culture, might blaze a new trail 
toward modernization, one that, unlike their former Soviet model, had 
little need for lawyers.
    Yet Deng Xiaoping and his colleagues soon demonstrated that they 
thought otherwise. After Chairman Mao's death ended the chaos of the 
Cultural Revolution, China's new leaders altered the Soviet model for 
economic development, but resurrected its political-legal system, 
including its reliance on ``socialist lawyers.'' Indeed, during the 
past three decades, the post-Mao leadership has increasingly expanded 
the roles of lawyers to help settle disputes, promote the evolving 
``socialist market economy,'' foster international business cooperation 
and legitimate the punishment of serious offenders.
    In principle, contemporary Chinese lawyers are no longer Soviet-
style ``state legal workers'' but independent professionals tasked with 
protecting citizens, including those at odds with the state. In fact, 
however, although their numbers, education and responsibilities have 
burgeoned, Chinese lawyers, like their Soviet predecessors, remain 
subject to significant restraints.
    The Law on Lawyers amended in 2007 seemed to promise greater 
autonomy to human rights lawyers. Yet their plight has actually 
worsened in the twenty months since the 17th Communist Party Congress. 
The reconfirmed Hu Jintao-Wen Jiabao leadership placed veteran Party 
officials, without legal education or experience but with a strong 
police background, in charge of the Ministry of Justice and the courts 
as well as the Central Party Political-Legal Committee that instructs 
all legal institutions. These new appointees seem determined to 
eviscerate the country's ``rights lawyers,'' who constitute a tiny 
fraction--perhaps one percent--of China's almost 150,000 licensed 
lawyers.
    Local officials under the Ministry of Justice, and the local 
lawyers associations they control, quietly press activist lawyers not 
to participate in a broad range of ``sensitive'' matters or at least to 
follow their ``guidance.'' Such cases include not only criminal 
prosecutions of alleged Tibetan or Uyghur ``separatists,'' democracy 
organizers and Falun Gong or ``house church'' worshipers, but also 
claims against government for many kinds of misconduct and corruption, 
birth control abuses and forced eviction and relocation.
    Even civil cases involving land transactions, environmental 
controversies, collective labor disputes and compensation for tainted 
milk and earthquake victims are off limits or controlled. The refusal 
to allow famous lawyer Mo Shaoping to defend public intellectual Liu 
Xiaobo against criminal charges arising from Charter '08's call for 
political reform is only the best-known recent example of this 
interference.
    Lawyers who fail to heed such ``advice'' suffer many sanctions.\1\ 
Their license to practice law is frequently suspended or, as in many 
current instances, their local lawyers association simply fails to give 
the endorsement required for annual license renewal. Their law firms 
are coerced to dismiss them or risk being closed, as some have been, 
and Party organizations within law firms have been reinforced.
---------------------------------------------------------------------------
    \1\ For a selection of essays and materials relating to sanctions 
against human rights lawyers, see e.g., ``Rule of Law,'' China Rights 
Forum (No. 1, 2009).
---------------------------------------------------------------------------
    Often, ex-lawyers who remain undeterred from assisting 
controversial clients are prosecuted and sent to prison by authorities 
who stretch the vague language of criminal law to cover their actions. 
Unfrocked Beijing lawyer Gao Zhisheng was convicted of ``inciting 
subversion.'' Former Shanghai lawyer Zheng Enchong served three years 
for ``sending abroad state secrets.'' Shenzhen lawyer Liu Yao's four-
year sentence for ``destroying property'' was only reduced after an 
extraordinary petition from over 500 lawyers persuaded the authorities 
to end his 16-month detention.
    In each case conviction means permanent disbarment and loss of 
livelihood. Moreover, even self-taught ``barefoot lawyers,'' who are 
not licensed but play an important role in the countryside, have been 
sent to long prison terms on trumped-up charges, as in the case of the 
courageous blind man, Chen Guangcheng.
    Perhaps most troubling is the frequent, physical intimidation of 
``rights lawyers.'' Today is the 156th day since the ``disappearance'' 
of Gao Zhisheng. His torture while previously detained makes many fear 
that he is now dead, although the Chinese Government ridiculously 
claims he is free on probation.
    Many lawyers, while seeking to meet with clients, have been beaten 
by police and their thugs. The well-known professor/activist Teng Biao 
not only lost his license to practice law but also was kidnapped and 
threatened by police. I can testify from various personal experiences 
that many ``rights lawyers'' are closely monitored and restricted in 
their movements.
    Since release from prison, Zheng Enchong's life has been a 
nightmare of incessant summoning for questioning, illegal house arrest 
and casual police beatings, in addition to harassment of his wife and 
daughter. When six policemen barred me from visiting him and I asked 
for their legal authority, they merely kept repeating ``We are 
police.'' A sequel to Victor Li's book might appropriately be entitled 
``Lawlessness Without Lawyers.'' \2\
---------------------------------------------------------------------------
    \2\ The above remarks are a slight expansion of an article that I 
published in the July 9, 2009 South China Morning Post in Hong Kong and 
China Times in Taiwan (in Chinese). See www.usasialaw.org.
---------------------------------------------------------------------------
                         three related aspects
    Before closing, I should mention three other aspects of today's 
topic that deserve Commission attention.
1. The Relation of Human Rights Lawyers to Political Reform
    There has been a difference of opinion among ``rights lawyers'' 
concerning the 
extent to which they should take part in political reform efforts. Some 
have maintained that, unless China undergoes democratic reforms that 
eliminate the Communist Party's monopoly of power, prospects for a 
genuine rule of law will remain dismal. They therefore believe that 
``rights lawyers'' must play an active role in promoting peaceful but 
major revisions to the political system. Others--a majority so far as 
one can tell--agree that significant political reform is crucial to 
achievement of the rule of law but, given the prevailing climate of 
repression in China, they believe that at present lawyers should 
dedicate their energies to defending rights within the existing legal 
system, despite its defects and limitations. This does not preclude 
working for legislative improvements within the system as well as 
taking part in individual cases. But it does preclude direct challenges 
to the Party's monopoly of power.
    Among ``rights lawyers,'' the unfortunate Gao Zhisheng was perhaps 
the leading proponent of opting for political reform. He not only 
represented Falun Gong and many other controversial clients but also 
courageously challenged Party rule, condemned the systematic torture of 
Falun Gong adherents and called for genuine 
democracy. As a result, as previously indicated, he was deprived of his 
license to practice law, tortured, convicted of ``inciting subversion'' 
and, 156 days ago, ``disappeared.''
    Yet the frustrations confronted by ``rights lawyers'' occasionally 
tempt even those who operate within the system to enter the political 
fray. Many an eyebrow was raised when Mo Shaoping, previously an 
exemplar of the ``professional,'' non-political view, signed Charter 
'08's call for political reform.
2. Legal Restrictions on the Professional Conduct of ``Rights Lawyers''
    Earlier testimony before the Commission has detailed the plight of 
Chinese criminal defense lawyers.\3\ The extent to which the newly-
amended Law on Lawyers may have improved the situation remains unclear. 
Some provisions in the amended Law, which was adopted just before the 
17th Party Congress led to enhanced Party controls over the legal 
system, were designed to strengthen the rights of criminal defense 
lawyers and their clients. Yet other language in the new Law can easily 
be manipulated to restrict those rights in fact and to place vigorous 
lawyers in peril. This is especially true of Article 37, which makes 
lawyers vulnerable to criminal punishment for courtroom ``language that 
endangers state security'' among other things. In the absence of 
extensive empirical research, which, because of the sensitivity of 
criminal cases, is difficult even for Chinese scholars to conduct, any 
assessment of the ``law in action'' is problematic.
---------------------------------------------------------------------------
    \3\ See, e.g., Jerome A. Cohen, ``Law in Political Transitions: 
Lessons from East Asia and the Road Ahead for China,'' July 26, 2005, 
http://www.cecc.gov/pages/hearings/072605/Cohen.php.
---------------------------------------------------------------------------
    Yet even the ``law on the books'' plainly needs improvement. The 
Criminal Procedure Law, which last underwent substantial revision in 
1996, must be updated to eliminate inconsistencies with the amended Law 
on Lawyers, and to deal with many long-unresolved issues concerning the 
lawyer's access to his client and to relevant files, freedom to gather 
evidence and greater opportunity to participate in the trial. 
Fundamental questions, such as whether key witnesses should be made to 
appear at trial and thus be subject to cross-examination, have still 
not been answered sixty years after establishment of the People's 
Republic!
    Moreover, the formal criminal process is not the only area where 
``rights lawyers'' encounter frustrations. Daily press reports remind 
us that Chinese police continue to resort to the notorious but 
supposedly ``non-criminal'' system of ``re-education through labor'' 
(RETL), which authorizes police--without participation of lawyers, 
prosecutors or judges--to sentence people to as long as three years of 
imprisonment for a broad range of ill-defined activity. The Ministry of 
Public Security, in its efforts to beat back proposals before the 
National People's Congress to abolish RETL, has occasionally 
experimented with allowing lawyers to take part in RETL proceedings, 
but generally they are excluded. Usually, the lawyer's only possible 
role is to assist people who have already been sent off to RETL 
confinement with an appeal for judicial review in the relatively few 
cases when the detainees are able to contact and hire counsel. Because 
China's courts are not allowed to consider challenges to government 
actions on Constitutional grounds and because the Standing Committee of 
the National People's Congress has been reluctant to utilize 
legislatively-authorized procedures for entertaining Constitutional 
challenges, lawyers have not succeeded in demonstrating RETL's 
Constitutional flaws.
    If the People's Republic should ratify the International Covenant 
on Civil and Political Rights, which it signed in 1998, that would, at 
least in principle, expand the role of lawyers in criminal justice and 
other sensitive matters. As things stand today, however, lawyers are 
even restricted in their ability to represent the increasing number of 
groups who need legal assistance in seeking government relief for their 
grievances and in settling disputes. For example, the 2006 Guiding 
Opinion of the All China Lawyers Association forbids lawyers from 
helping groups of ten or more to petition government agencies; and they 
are required to inform, consult and heed local judicial administration 
officials and lawyers associations as well as other, unidentified 
``relevant agencies'' regarding cases in which such groups retain them.
3. Licensed Lawyers and ``Barefoot Lawyers''
    By ``barefoot lawyers'' I mean laymen, not licensed lawyers, who 
have informally acquired some legal learning and who apply it, usually 
in the countryside, in advising people and representing them before 
courts and other agencies. Until his persecution by the local 
government in Shandong Province, the blind social activist Chen 
Guangcheng, now in prison, was a classic and famous ``barefoot 
lawyer.'' Unable to enlist the help of the few lawyers who practice in 
rural Yinan County, Chen, who wanted to persuade the county court to 
order the local government to cease various discriminatory acts against 
himself and other disabled people, decided to rely on his own efforts. 
He learned through practice and from several ``do it yourself'' 
handbooks on litigation that were read to him by his family.
    China has far too few lawyers in the countryside, and some counties 
have no lawyers at all. Furthermore, some lawyers do not want to take 
on certain types of cases, whether for financial, political or other 
reasons. Yet the demand for legal services is rising in the countryside 
because of economic and social progress and the rising ``rights 
consciousness'' among ordinary Chinese that has accompanied this 
progress. Other important factors are the growing sense of injustice 
and popular anger against official corruption, plus the government's 
own propaganda that emphasized ruling the country according to law. 
Meeting the increasing need for legal services is a huge problem, and 
``barefoot lawyers'' are an understandable, if insufficient, response.
    Yet China's legal profession has not uniformly welcomed ``barefoot 
lawyers,'' fearing that, through incompetence or corruption, they would 
further sully the reputation of a profession that has experienced 
difficulty overcoming traditional Chinese distrust and disrespect. Some 
rural lawyers worry that ``barefoot'' competition may infringe upon 
their income. Even some ``rights lawyers'' who hail from the 
countryside are wary of relying on ``barefoot lawyers.''
    Until the need for legal services in the countryside has 
substantially diminished, however, the wiser path would seem to be to 
offer basic legal training and perhaps certification to the many 
thousands of ``barefoot lawyers'' who are urgently required. An 
experiment worth emulating is the training program organized by Wang 
Chenguang, former Dean of Tsinghua Law School, with Ford Foundation 
support. Certainly the issue deserves empirical research and greater 
attention.
    I hope that these brief introductory remarks are useful and look 
forward to the presentations of my colleagues and the subsequent 
discussion.
                                 ______
                                 

                Prepared Statement of James V. Feinerman

                             july 10, 2009
    This month marks the 30th anniversary of the path-breaking decision 
of the People's Republic of China (PRC) to turn its back on almost 
three decades of Maoist antinomian rule and to embrace publicly a new 
role for law in China's governance. On July 1, 1979, the PRC government 
promulgated seven new laws--including a criminal code, criminal 
procedure code and a law on Sino-Foreign Equity Joint Ventures--
indicating a new determination to use law in the promotion of the PRC's 
opening to the outside world and domestic economic reform. Thus it is 
appropriate that the Congressional-Executive China Commission convene 
this hearing today to consider the current state of development of 
China's legal system and the legal profession which serves it.
    As members of the Commission already know, China's Communist Party 
under its current leadership emphasizes building a ``harmonious 
socialist society.'' One of the stated key components of this project 
has been enhancing the rule of law. Despite considerable progress over 
the past almost three decades, China today is hardly a ``rule of law'' 
society by Western lights. Unfortunately, for the past several years 
and even in recent months, activist lawyers, intrepid journalists and 
those who take on unpopular causes, or represent the disadvantaged and 
unfortunate, are arrested, intimidated, and silenced. China's nascent 
bar and weak, poorly trained judiciary offer scant promise of redress.
    Why then should we be so concerned with the development of law and 
the somewhat fitful improvements of the Chinese legal system? Well, 
from China's perspective, establishing the ``rule of law'' is critical 
to China's political stability and further economic growth. We should 
not forget that this process of legal modernization began on the heels 
of a devastating, decade-long Great Proletarian Cultural Revolution. 
This was a time of great disorder in every aspect of Chinese society. 
The leaders who set China on its current course were, many of them, 
also victims of the rampant lawlessness and political insanity of that 
era. So their interest in reform and legality was keen, even if China 
lacked the usual societal underpinnings for the ``rule of law'' 
concept.
    If by ``rule of law'' we mean a system where law restrains state 
and private power, subjecting even the rulers to its limits, China is 
still far from realizing such a system. The top leadership--not only in 
the national and lower-level governments--but more importantly in the 
all powerful Communist Party are very unlikely to accept such 
constraints in the foreseeable future. Consistent rules, independent 
courts and a powerful bar to protect civil and political rights will be 
a long time coming. Market economy legal rules, on the other hand, have 
been drafted and put into place much more quickly. Administrative rules 
to rein in the bureaucracy (and to attempt to force it to follow 
central government dictates) have been developing apace.\1\
---------------------------------------------------------------------------
    \1\ Jamie P. Horsley, ``Rule of Law in China: Incremental 
Progress,'' in C. Fred Bergsten, N. Lardy, B. Gill & D. Mitchell, The 
Balance Sheet in 2007 and Beyond. Center for Strategic and 
International Studies and The Peterson Institute for International 
Economics, 2007.
---------------------------------------------------------------------------
    Despite this mixed picture, anyone who (as I did as a participant 
in the initial student exchange program) saw the reality of China in 
the late 1970s--when the legal reform developments began--must admit 
that China has indeed made a ``new Long March'' from the Maoist era 
``rule of man'' and rampant lawlessness of the Cultural Revolution.\2\
---------------------------------------------------------------------------
    \2\ Randall Peerenboom, China's Long March Toward the Rule of Law, 
Cambridge University Press, 2002.
---------------------------------------------------------------------------
                         historical background
    At the famous Third Plenum of the Eleventh Communist Party Congress 
in December 1978, Deng Xiaoping not only opened China to the world and 
decreed its economic reform but also called for a rule of law. Since 
that time, there has been an exponential growth of national 
legislation, provincial and local lawmaking, and accession to 
international treaties and institutions. China's entrance to the World 
Trade Organization (WTO), by itself, required the promulgation of 
thousands of laws and rules.
    Institutions of national scope, such as the National People's 
Congress (NPC) and its Standing Committee, the State Council, the 
Supreme People's Procuratorate and the Supreme People's Court were 
either revived or re-established. Over time, they have become much more 
professional than they were not only thirty years ago but even ten 
years ago. Throughout China, a small coterie of lawyers and legal 
reformers promoted legal change and protection of basic rights. Legal 
aid has become--at least theoretically--available to China's citizens, 
some of whom avail themselves of such assistance and even make use of 
the media to assert their rights and try to achieve their objectives 
even against the government.
    Nonetheless, the Communist Party remains in ultimate control; more 
significantly, the Party and its leadership remain outside the reach of 
the law, relying upon Party discipline and other mechanisms to maintain 
a separate superior status. The government bureaucracy--including the 
courts and other legal institutions--are dominated by Communist Party 
appointees at every level, despite some autonomy for independent actors 
to develop the rule of law.\3\
---------------------------------------------------------------------------
    \3\ Xin Ren, Tradition of the Law and Law of the Tradition: Law, 
State, and Social Control in China, Greenwood Press, 1997.
---------------------------------------------------------------------------
                  a preliminary note on china's courts
    Continuing political interference by the Communist Party insures 
that China's judicial system is far from enjoying the judicial 
independence that other legal systems take as axiomatic. The 
implications for legal practice and protection of citizens' rights are 
ominous. The replacement of the former President of the Supreme 
People's Court, Xiao Yang, by a man who not only lacks legal training 
but has long been a Communist Party hack has set back efforts to 
improve the quality of judges and reform the judiciary. Poorly training 
and meager compensation of judges leads to corruption which plagues the 
court system, diminishing its respect and prestige among the Chinese 
public.
    It is also worth noting that China's courts not an independent 
branch of government. The Standing Committee of the NPC has the final 
authority to interpret national law. Communist Party adjudication 
committees inside the courts oversee the work of the judges, 
particularly in politically sensitive or important cases. Judicial 
independence is non-existent in China.\4\
---------------------------------------------------------------------------
    \4\ Benjamin Liebman, China Quarterly, Vol. 191, pp. 620-638 
(September 2007).
---------------------------------------------------------------------------
                  what role for the legal profession?
    The modernization of the PRC legal system has required a massive 
training effort to increase the quantity and the quality of legal 
professionals. These new lawyers have many roles: to familiarize the 
general public with the emerging legal system; to draft and to improve 
the laws themselves; and to serve in government and the private sector 
as practicing attorneys. Having begun with fewer than a thousand 
lawyers and less than a dozen law faculties when it began legal 
modernization in 1979, China now boasts over 130,000 lawyers (with a 
stated goal of having 150,000 qualified lawyers by 2010) and--depending 
on how they are counted--anywhere from 400 to 600 law faculties. 
Compared to the United States and other developed countries, the number 
of practicing lawyers in China is quite low on a per-population basis, 
the rapid growth of the bar is remarkable. Many obstacles stand in the 
way of creating a truly independent legal profession in China. Through 
the All China Lawyers Association and local-level organizations, PRC 
lawyers are subjected to Party discipline. The Ministry of Justice and 
local judicial bureaus exercise strict ``supervision and guidance'' 
over practicing lawyers and judges. Nevertheless, a few fearless 
lawyers and legal scholars have taken courageous positions, often 
contrary to government and Party dictates, to pushing for legal changes 
and greater ``rule of law'' in China.\5\
---------------------------------------------------------------------------
    \5\ Gerard J. Clark, ``An Introduction to the Legal Profession in 
China in the Year 2008,'' Suffolk University Law Review, Vol. 41, p. 
833 (2008).
---------------------------------------------------------------------------
    Along with the increasing number of lawyers, legal education 
institutions have also mushroomed in China since 1979. While these new 
faculties have the potential for advancing the ``rule of law'' in 
China, many are simply riding a wave of interest rooted in careerism as 
the profile of law and the legal profession has risen. Law is seen as a 
lucrative career path for those who pursue certain avenues, as it is in 
many developed countries. With a hidebound curriculum controlled at the 
national level by the Ministries of Education and Justice, law schools 
are usually not too adventurous in training their graduates to consider 
what might be characterized as ``public interest'' law. While some, 
mostly elite, law faculties have introduced clinical legal education, 
combining hands-on representation of clients with classroom 
instruction, such programs have had limited impact in communities 
beyond their immediate environs. A few leading law faculties have also 
established research centers for topics of great public interest--such 
as worker and consumer rights, women's status in society and the rights 
of the disabled and disadvantaged--but these programs have so far 
induced very little change in the larger societal and legal problems 
facing Chinese society today.\6\
---------------------------------------------------------------------------
    \6\ Pamela N. Phan, ``Clinical Legal Education in China: In Pursuit 
of a Culture of Law and a Mission of Social Justice,'' Yale Human 
Rights and Development Law Journal, Vol. 8, pp. 117-152 (2005).
---------------------------------------------------------------------------
    The role of legal academics in the PRC has also been constrained by 
political 
realities. While many Chinese legal scholars have studied abroad in 
countries with more developed legal system, their new ideas about law 
and legal reform often present a source of controversy in China. Their 
assistance may be sought in certain narrow areas of legal drafting, but 
their ideas are often quite suspect when it comes to policymaking. Even 
when local people's congresses and government legal affairs seek 
scholars' input, they remain more likely to accept the advice of 
private law firms and lawyers' associations as more practical. There 
has been a limited program to employ a few law professors as 
consultants to governments, but law professors and lawyers are far less 
likely to work for government agencies than is the case in the United 
States or other countries. Given the relative lack of legal expertise 
in most government sectors, and the growing need for legal advice in a 
society with the stated goal of basing government actions on law, the 
need for legal professionals to advise the government is obvious. The 
likelihood that the need will be filled is less certain.
    Unlike their counterparts in the United States, Chinese lawyers 
have very little direct engagement in politics. While a few lawyers 
serve as local people's congress deputies and on people's political 
consultative congresses, their impact thus far has been quite limited. 
Presumably, their legal expertise could help to professionalize the law 
drafting and other work of these legislative bodies. At the national 
level, it will be interesting to see whether the ascent of a legally 
trained leader, Li Keqiang, who is likely to become China's next 
Premier several years from now will have an impact on the involvement 
of other lawyers in Chinese political life.
    As is true in many other countries, the vast majority of China's 
law graduates go to work as private lawyers. Nevertheless, a few seek 
to represent the underrepresented groups in Chinese society. Criminal 
defendants are supposed to be given legal assistance as a matter of 
national law. With the assistance of various foreign and domestic 
organizations (including the United Nations Development Program and the 
Ford Foundation), legal aid clinics have been sponsored to assist 
disadvantaged citizens, rural migrants and people with disabilities. 
Legal aid has become firmly rooted in China's changing legal culture 
and has helped to raise rights consciousness among sectors of society 
that have not had much access to the formal legal system in the past. 
Over a thousand centers have opened in cities across China and are 
estimated to employ several thousand full-time legal aid workers at a 
considerable cost to the government. However, these seemingly 
impressive figures may conceal more than they reveal. Researchers have 
discovered that these centers often have no real substance and no 
dedicated employees but rather are often local government offices of 
the Ministry of Justice with new signage. Moreover, the number of 
people actually receiving legal aid has not grown at the same rate as 
expenditures on legal aid which grew more than five-fold from 1999 to 
2003, while the number of people receiving legal aid only increased by 
fifty percent. Despite considerable progress, experts continue to 
lament the shortage of funds and low access to legal aid.\7\
---------------------------------------------------------------------------
    \7\ Xu Jianxin, ``Justice and the Need for Legal Aid NGOs in 
China,'' China Rights Forum, No. 3, pp. 71-73 (2005).
---------------------------------------------------------------------------
    The reluctance of Chinese lawyers to pursue unconventional areas of 
practice may be explained by the consequences for those who find 
themselves in opposition to state and Communist Party. A series of 
cases over more than a decade have demonstrated that those who 
undertake criminal defense or politically sensitive cases may face dire 
consequences. Some criminal defense lawyers have been accused and 
convicted on trumped up charges of falsifying evidence or committing 
perjury. Others have been accused of revealing ``state secrets''--often 
nothing more ``secret'' than newspaper clippings or published maps. 
This may result in the loss of their jobs and the suspension or 
cancellation of their licenses to practice law. Just these past few 
months, the Chinese government has been forcing human rights law firms 
to shut down. This has not involved a formal crackdown; authorities 
have not seized files or sent attorneys to labor camps. Instead, the 
justice authorities are simply using administrative procedures for 
licensing lawyers and law firms, declining to renew the annual 
registrations, which expired May 31, of those it deems troublemakers. 
Human rights groups say dozens of China's best defense attorneys have 
effectively been disbarred under political pressure.\8\ In the time-
honored Chinese tradition of ``killing the chicken to scare the 
monkeys,'' these actions were clearly designed to put the brakes on 
activism by other individuals and firms.
---------------------------------------------------------------------------
    \8\ Human Rights in China, ``Human Rights Defenders: Harassment and 
Other Unfavorable Treatment,'' cited at http://www.hrichina.org/public/
contents/press?revision--id=62625&item--id=62623#hrd.
---------------------------------------------------------------------------
  what happens to lawyers who take on controversial cases and clients
    The maltreatment of lawyers involved in defending unpopular people 
and causes is nothing new in China's modern legal system. For years, 
the Chinese authorities have increased restrictions on lawyers who work 
on politically sensitive cases or cases that draw attention from the 
foreign news media. The typical means of harassment is to intimidate 
lawyers defending criminal defendants by charging them, or threatening 
to charge them, with various crimes. If that does not work, authorities 
have also used harassment and violence against those who participate in 
criminal or civil rights defense in sensitive matters. Detention, house 
arrest and even imprisonment on manifestly false charges are commonly 
employed. Pettier forms of 
harassment have also kept lawyers incommunicado, prevented friends and 
family members from contacting controversial lawyers and even turned on 
spouses and children of targeted attorneys.
    These practices have excited concern of lawyers elsewhere in the 
world for the lives and livelihood of Chinese lawyers. In Hong Kong, 
the China Human Rights Lawyers Concern Group (CHRLCG) made an NGO 
Submission to the United 
Nations Committee Against Torture for the 41st session for the Fourth 
and Fifth Periodic Reports of the People's Republic of China on the 
Implementation of the Convention Against Torture and Other Cruel, 
Inhuman or Degrading Treatment or Punishment in October 2008. It noted 
that although China had ratified the Convention Against Torture and 
Other Cruel, Inhuman or Degrading Treatment or Punishment (the 
Convention) in October 1988, dissidents and human rights defenders have 
continued to be subjected to various forms of torture. In addition to 
China's failure to effectively implement all the relevant provisions on 
torture in domestic laws, the report noted, law enforcement officers 
are usually the ones who violate the domestic laws and the 
international convention. Recently, CHRLCG became alarmed that the 
situation was becoming even more worrying because a number of human 
rights lawyers and legal rights defenders have become the subjects of 
torture by public security officers and prison officers merely because 
they provide legal assistance to human rights defenders or took up 
cases considered ``politically sensitive'' by the government. 
Therefore, the CHRLCG expressed concern about how bad the situation is 
and what problems ordinary Chinese citizens encounter since even 
lawyers are subjected to torture and harassment by law enforcement 
officers.\9\
---------------------------------------------------------------------------
    \9\ China Human Rights Lawyers Concern Group (CHRLCG), An NGO 
Submission to the UN Committee Against Torture for the 41st session for 
the Fourth and Fifth Periodic Reports of the People's Republic of China 
on the Implementation of the Convention Against Torture and Other 
Cruel, Inhuman or Degrading Treatment or Punishment , October 2008, 
accessed at http://www2.ohchr.org/english/bodies/cat/docs/ngos/CHRLCG--
China--cat41.pdf.
---------------------------------------------------------------------------
    In drawing the Committee's attention to individual cases to 
illustrate how China has violated the Convention, the CHRLCG noted:

          [These] are more well-known cases about mainland Chinese 
        human rights lawyers and legal rights defenders being illegally 
        and unreasonably harassed by law enforcement officers. It is 
        only the tip of the iceberg. There are many more cases 
        involving lesser known human rights legal practitioners. These 
        lawyers were targeted because they took up cases regarded by 
        fellow legal practitioners as highly politically sensitive, 
        such as defending political dissidents, rights defenders and 
        Falun Gong practitioners. Falun Gong is banned in China. These 
        lawyers are only using their professional skills to help people 
        in need. They shouldn't be subjected to oppression and torture 
        by the authorities. If [China] is committed to developing 
        universally accepted principles and the rule of law, it should 
        stop harassing and attacking legal rights defenders and human 
        rights lawyers. Only an independent judiciary and a credible 
        legal system can ensure that these abuses won't happen again. 
        In order to ensure that lawyers, legal rights defenders and 
        ordinary citizens will be free from arbitrary attacks and 
        harassments by law enforcement officers and thugs hired by law 
        enforcement officers, [China] should ensure that law 
        enforcement officers comply with provisions of the 
        Convention.\10\
---------------------------------------------------------------------------
    \10\ Id.

    With this background in mind, it may be worthwhile to consider 
briefly a few examples of individual rights defenders in representative 
cases who have suffered these abuses.
Falun Gong
    Human Rights in China (HRIC) has reported on the cases of Beijing 
rights defense lawyers Zhang Kai and Li Chunfu who were violently 
beaten at their client's home in Chongqing by local police on May 13, 
2009. They were then brought to the local police station for 
interrogation and were locked up in an iron cage and slapped in the 
face. A month earlier, Beijing rights defense lawyer Cheng Hai was also 
violently beaten by the police in Chengdu, Sichuan for handling a Falun 
Gong case.
    Zhang Kai is a lawyer with Beijing Yijia Law Firm and Li Chunfu is 
a lawyer at Beijing Globe Law Firm. On the afternoon of May 13, they 
met with relatives of Jiang Xiqing at their home in Jiangjin District, 
Chongqing to discuss Jiang's death while serving a Reeducation-Through-
Labor (RTL) sentence. Jiang Xiqing, 66, was arrested by the police on 
May 14, 2008, and sentenced to one year of RTL for practicing Falun 
Gong. On January 28, 2009, the Chongqing Xishanping Reeducation Center 
informed Jiang's family that Jiang had died of a heart attack. He was 
then cremated without consent by his family. The family, suspicious of 
the cause of death, hired a Chongqing lawyer for legal assistance. But 
after inquiring formally with the police, the lawyer declined to be 
retained by the family.
    Li and Zhang agreed to represent the family, notwithstanding the 
implied threats experienced when the family had previously tried to 
retain counsel. Sources inside China informed HRIC that around 4 p.m. 
on the afternoon of May 13, four policemen came to the home of Jiang's 
relatives and said they were delivering materials from the public 
security bureau's judicial administrative office. They started to 
interrogate the lawyers, asking the lawyers to produce their identity 
cards. Soon afterwards, about 20 more people from the state security 
unit of the Jiangjin District Public Security Bureau and Jijiang Police 
Substation also arrived. Jiangjin State Security squadron leader Mu 
Chaoheng asked Jiang Xiqing's relatives, ``Who told you to hire 
lawyers? Your dad died a natural death.''
    After Li Chunfu presented his lawyer's license and Zhang Kai 
presented his passport, the police announced, ``We only accept identity 
cards.'' The police surrounded Zhang Kai and Li Chunfu and began 
pulling their hair, twisting their arms, tripping them, and beating 
them while pinning them on the ground. The police then handcuffed them 
and hauled them into their vehicle. They also took away Jiang Xiqing's 
son, Jiang Hongbin. After arriving at the police station, Zhang Kai was 
hung up with handcuffs in an iron cage and Li Chunfu was slapped in the 
face by the police. During the interrogation, the police threatened the 
lawyer to stop defending Falun Gong cases. When the lawyers argued that 
everyone had a right to legal counsel, the police said: You absolutely 
cannot defend Falun Gong; this is the situation in China. Lawyer Zhang 
Kai later said, ``This is typical hoodlum behavior. They just wanted to 
intimidate us and force us to withdraw from the case. They are so 
frightened; they must be hiding something about this case.''
    Zhang Kai and Li Chunfu were released at 12:40 a.m. on May 14. 
Their hands were covered with bruises and scars. Zhang Kai's hands were 
numb and swollen, and Li Chunfu had troubling hearing in one ear. 
Subsequently, they had to be taken to be examined at Jiangjin District 
People's Hospital.\11\
---------------------------------------------------------------------------
    \11\ Human Rights in China, ``Beijing Lawyers Beaten for 
Representing Falun Gong Case,'' May 13, 2009, cited at http://
www.hrichina.org/public/contents/press?revision--id=164835&item--
id=164831.
---------------------------------------------------------------------------
HIV patients
    Hu Jia was a rights defender, not a lawyer, who worked for the 
rights of those suffering from HIV/ AIDS in rural China. He is the co-
founder of the Beijing Aizhixing Institute for Health Education, a non-
governmental organization which promotes public awareness and education 
on the issue of HIV/ AIDS. On March 18, 2008, Hu Jia was tried in the 
First Beijing Intermediate Court on charges of subversion against the 
Chinese Government in relation to his on-line writings and has pleaded 
not guilty. He faced up to five years' imprisonment and is expected to 
be sentenced in the coming week. Hu Jia's lawyer, Li Fangping, reported 
that he was allowed only twenty minutes in which to defend Hu Jia and 
was consistently interrupted by the judge when giving his defense. In 
addition, several foreign diplomats and members of Hu Jia's family were 
prevented from attending the trial and many of his supporters were 
reportedly forced by the authorities to leave Beijing for the duration 
of the trial in order to prevent them from speaking with journalists.
    Hu Jia was detained on December 27, 2007 after giving his public 
testimony to the European Parliament in which he gave details of human 
rights violations reportedly being committed in China. He was 
officially arrested on January 30, 2008 and charged with ``incitement 
to subvert state power''. On April 3, 2008, Hu was sentenced to three 
years and six months in prison. Hu's wife Zeng Jinyan, after an April 
2009 prison visit with Hu Jia, noted that his health is deteriorating 
because of inadequate nutrition and medical care. Following his arrest 
his wife, Zeng Jinyan, and his daughter were reportedly prevented from 
leaving their apartment in Beijing. Several other writers who have 
published their work on the Internet and are considered cyber-
dissidents by the authorities were arrested at the same time.
    These arrests have been interpreted as a campaign of intimidation 
on the part of the authorities against human rights defenders in order 
to dissuade them from publicizing information about human rights abuses 
in China during the period of the Olympic Games. Hu Jia has written of 
human rights abuses committed against those suffering from HIV/ AIDS in 
rural China, as well as of issues of religious freedom and the human 
rights situation in Tibet. His lawyer, Li Fangping, a prominent human 
rights activist, has also been harassed both for representing Hu Jia 
and for other controversial cases.\12\
---------------------------------------------------------------------------
    \12\ Human Rights Watch, ``Hu Jia Chronology: Key events, February 
2006-present,'' Beijing 2008 China's Olympian Human Rights Challenges, 
cited at http://china.hrw.org/press/news--release/hu--jia--chronology.
---------------------------------------------------------------------------
Class-action cases
    In 2006, the All China Lawyers Association (ACLA) issued a guiding 
opinion that restricts and subjects to punishment any lawyer who gets 
involved in a ``mass'' case. The ACLA Executive Council approved the 
Guiding Opinion of the All China Lawyers Association Regarding Lawyers 
Handling Cases of a Mass Nature, which went into effect on March 20, 
2006. The following passage, drawn from a translation prepared by the 
Congressional-Executive Commission on China of the ``Guiding Opinion of 
the All China Lawyers Association Regarding Lawyers Handling Cases of a 
Mass Nature,'' distributed by the All China Lawyers Association on 
March 20, 2006, sets forth the new policy to restrict and inhibit class 
actions:

          At present and hereafter, during this important era in which 
        our nation is constructing a socialist harmonious society, the 
        correct handling of cases of a mass nature is essential to the 
        construction of a harmonious society. Cases of a mass nature 
        more commonly occur in land requisitioning and levying of 
        taxes, building demolitions, migrant enclaves, enterprise 
        transformation, environmental pollution, and protection of the 
        rights and interests of rural laborers, among other areas. 
        Cases of a mass nature generally have comparatively complicated 
        social, economic, and political causes, and have effects on the 
        state and society that vary in degree and cannot be ignored. 
        Thus, there is a need to standardize and guide lawyer handling 
        of cases of a mass nature.\13\
---------------------------------------------------------------------------
    \13\ All China Lawyers Association, ``Guiding Opinion of the All 
China Lawyers Association Regarding Lawyers Handling Cases of a Mass 
Nature,'' March 20, 2006, English translation available at http://
www.cecc.gov/pages/virtualAcad/index.phpd?showsingle=53258.

    This Guiding Opinion uses the term ``mass'' cases to describe those 
that involve representative or joint litigation by 10 or more 
litigants, or those in which the matter is handled through a series of 
litigation and non-litigation efforts. While it notes that mass cases 
``more commonly occur'' in the safeguarding of rights and interests of 
disadvantaged groups, it clearly seeks to control and to minimize them. 
Also noteworthy is that the Guiding Opinion instructs law firms to 
assign only ``politically qualified'' lawyers to conduct initial intake 
of these cases, and to obtain the approval of at least three partners 
before taking them on. Such collective responsibility increases the 
likelihood that firms will be unwilling to take on these cases. 
Moreover, lawyers who handle mass cases must ``promptly and fully 
communicate'' this information to the local justice bureau, accept 
supervision and guidance by judicial administration departments, 
attempt to mitigate conflict, and propose mediation as the method for 
conflict resolution. Thus, the case will almost certainly never get to 
court if the tortuous path that the Guiding Opinion sets out is 
followed. As a final twist, the Guiding Opinion says that local lawyers 
associations may sanction any lawyer or law firm that fails to follow 
these guidelines and causes a ``negative 
impact,'' or report them to the relevant judicial administration 
department for punishment.
    The Guiding Opinion was only one in a series of opinions that 
restricted the participation of lawyers in specific categories of 
rights defense work. In addition to ``mass'' cases, other categories 
that triggered restrictions included ``major,'' ``difficult,'' and 
``sensitive'' cases. For example, the Henan Provincial Justice Bureau 
and Shenyang Municipal Justice Bureau (in Liaoning province) each 
issued opinions governing the range of activities permitted in 
``sensitive'' cases, according to reports in April, 2006.\14\
---------------------------------------------------------------------------
    \14\ See, e.g., ``Henan Justice Bureau Establishes a Rule for 
Lawyers: No Stirring Up of Sensitive Cases''[Henan sifating wei lushi 
ding ``guiju'' mingan anjian jin chaozuo], Henan Daily, reprinted in 
Xinhua (Online), 10 April 06. Cited at <news3.xinhuanet.com>
---------------------------------------------------------------------------
Tainted food and formula cases
    In 2007 and 2008, China was rocked by scandals involving tainted 
milk and baby formula which poisoned hundreds, causing kidney stones 
and other medical problems, and even killed a number of children. The 
products had been adulterated increase its protein count; this in turn 
revealed a web of corruption and lack of proper oversight in China's 
food processing industries. A group of 90 lawyers from Hebei, Henan and 
Shandong--the three worst affected provinces--had made pro bono offers 
to assist victims, and a list of their names was published. Organizers 
of the group declared that they had come under pressure from officials 
to not to get involved in the issue. The Beijing Lawyers' Association, 
a part of the Communist Party apparatus, asked its members ``to put 
faith in the party and government.'' Other members of the group 
reportedly received less subtle requests. Authorities were said to fear 
social unrest if law suits were unleashed. The Pro-Beijing Hong Kong 
journal Ta Kung Pao reported that central authorities, fearful of the 
effect of mass law suits, held a meeting with lawyers' groups in 
September, 2008, asking them to ``act together, and help maintain 
stability.''
    Chang Boyang, one of the group of volunteer lawyers, said he had 
filed a suit in Guangdong against the chief offender, the Sanlu Milk 
Company, on behalf of the parents of one victim. One had already filed 
in Henan. Chang said that Henan's justice department had ordered 14 
Henan lawyers to stop helping the kidney stone victims, saying it had 
become a political issue. He claimed he was told by the official to 
``follow the arrangements set out by the government,'' and was further 
threatened: ``If this suggestion is disobeyed, the lawyer and the firm 
will be dealt with.'' Zhang Yuanxin, lawyer and officer in the Xinjiang 
Lawyers' Association said that the actions of certain departments in 
government have ``set back the development of the legal profession.'' 
He said that it was ``intolerable'' for government to interfere in the 
affairs of the judiciary, denying the right of ordinary citizens to 
sue.\15\
---------------------------------------------------------------------------
    \15\ Edward Wong, ``Courts Compound Pain of China's Tainted Milk,'' 
New York Times, October 17, 2008, cited at http://www.nytimes.com/2008/
10/17/world/asia/17milk.html?ref=asia&p.
---------------------------------------------------------------------------
    An official said that central government had issued instructions 
placing the cases on hold, pending a decision on how to handle the 
cases in a unified manner. Furthermore, that court was instructed not 
to give any written replies or accept Sanlu-related cases in the 
meantime.
Sichuan earthquake parents
    In the spring of 2008, a terrible earthquake struck China's Sichuan 
province. Building were leveled, towns destroyed and many citizens 
killed or injured. Later it was discovered that many of the building 
were improperly constructed and--had they been built according to 
applicable regulations--should have withstood the earthquake. Relatives 
of Sichuan earthquake victims attempted to sue those responsible but 
became victims yet again. Some were even imprisoned, such as an eight 
year-old boy who was among those imprisoned by Chinese police 
attempting to silence protests by the relatives of thousands of 
children who died in last year's earthquake, according to a new report 
by Amnesty International. He was held as anger among bereaved parents 
in Sichuan Province intensified when the authorities went back on their 
promise to hold a full inquiry into why so many schools were destroyed. 
The boy was detained overnight last June, along with his father, by 
police in Shifang City who were looking for his uncle, who had been 
planning to petition the local authorities over the death of his two 
sons during the May 12 earthquake.
    Roseann Rife, Amnesty's Asia-Pacific Deputy Programme Director, 
said: ``It's absolutely extraordinary that the police would detain a 
child of that age. It's a violation of the UN Convention on the Rights 
of the Child, which China has signed up to, as well as Chinese law.'' 
Almost five thousand children are known to have died when their schools 
crumbled to the ground last May in what was the strongest earthquake to 
hit China in 50 years. Parents of the children have blamed the 
substandard construction of the schools, many of which collapsed while 
the buildings around them stayed upright, for the deaths. But officials 
in Sichuan claim that the force of the earthquake was the primary 
reason why 9,145 schools in the province were destroyed or damaged.\16\
---------------------------------------------------------------------------
    \16\ Amnesty International, China: Justice denied: Harassment of 
Sichuan earthquake survivors and activists, May 2009, archived at 
http://www.amnesty.org/en/library/asset/ASA17/018/2009/en/dbf100fd-
c9f7-4675-91b4-e85e25460809/asa170182009eng.pdf.
---------------------------------------------------------------------------
    The government has offered 60,000 Yuan compensation to the parents 
for each dead child, but only if they agree not to press for an inquiry 
into the construction of the schools, or to bring court cases seeking 
damages from the state. According to Amnesty International, an unknown 
number of those who have petitioned the authorities for an 
investigation have been detained in unofficial ``black jails'' for up 
to 21 days at a time. Lawyers and activists who have assisted them have 
also been harassed or detained. For example, Luo Guoming claims he was 
imprisoned for a week last September. His 16 year-old daughter Luo Dan 
died with another 600 or so children, when the Juyuan Middle School in 
Dujiangyan collapsed.
    ``A dozen of us parents were on the way to the provincial capital 
Chengdu to petition the authorities when the police stopped us and 
turned us back. The next day, they came to my home and took me away,'' 
he said. Mr Luo said he believed his mobile phone was being monitored. 
He has given up his job as a carpenter to devote his time to seeking 
justice for his daughter. ``I want the authorities to do what they said 
they would do, which is investigate the construction of the schools, 
find out who was responsible for such shoddy building work and punish 
them,'' he said.
    Human rights activists who have offered assistance to the victims, 
given out information about the earthquake or represented parents in 
negotiations with authorities have been harassed and arbitrarily 
detained. Huang Qi was detained because of his work to help the 
families of five primary school students who died when their school 
building collapsed during the earthquake. He has been in detention 
since June 2008, with no access to his family. He Hongchun, a 
representative of parents whose children died during the earthquake, 
was detained in September 2009 after he organized a protest outside an 
insurance company. Tan Zuoren was detained on 28 March 2009, and it is 
believed that his detention is related to his intention to issue public 
materials on the first anniversary of the earthquake, including a list 
of the children who died on 12 May 2008.\17\
---------------------------------------------------------------------------
    \17\ Id.
---------------------------------------------------------------------------
               concluding reflections and recommendations
    China's evolving legal system is a substantial change to both long 
Chinese tradition and the politics and practice of Maoist Chinese 
political culture. Lawyers and a legal profession are equally new to 
China and can only become rooted in China slowly. Chinese citizens 
nonetheless seek ways to obtain redress of governmental abuses of 
power, to oversee government behavior, and to participate in their 
society. However reluctantly, the Chinese leadership has decided to 
foster a growing legal profession and to employ it, suitably 
constrained, in modernizing China, developing its economy and creating 
a ``harmonious society,'' with the support of law.
    Establishing the rule of law with the help of lawyers is not that 
easy to control. While welcoming the predictability of legal order, and 
hoping that legal means can help to curb corruption, China's leaders 
have already learned that legal activism is difficult to channel. Once 
ordinary Chinese citizens begin to feel that they have the legal right 
to courts to enforce their rights, it becomes problematic to tell them 
that only certain rights warrant protection, especially when those 
rights are at least theoretically protected by existing laws and 
regulations.
    China's judiciary has thus far served as a lackey for state and 
Party leaders, heeding their call and accepting the restrictions placed 
on it. As it becomes stronger, and as lawyers' activism begins to 
promote judicial independence from government and Party interference, 
judges may be able to fulfill their roles and reframe Chinese 
jurisprudence. A more credible Chinese judiciary would also help 
increase domestic and foreign respect for the Chinese legal system.
    The rule of law in China has long been something of an oxymoron, or 
as Mao used to stress, a ``contradiction.'' The Communist Party remains 
the final arbiter of not only the rule of law but of all lawful 
government and refuses subject itself and its minions to the discipline 
of the law. A professional class of lawyers--well educated, comfortably 
middle class and increasingly self assured--may eventually be able to 
wrest greater power over the legal system. And, in contrast to the 
experience of previous decades, the sunlight of a more active foreign 
and international press, homegrown human rights defenders (many of them 
NOT lawyers) and the advantages of modern modes of communication--the 
cell phone, fax and Internet--assure continued scrutiny of a system 
about which we know a great deal in detail. That alone may assure 
continuing pressure to extend the promise of the rule of law to ever 
larger swathes of Chinese society.
                                 ______
                                 

                 Prepared Statement of Xiqiu ``Bob'' Fu

                             july 10, 2009
    Thank you for the invitation to this panel with Professor Jerome 
Cohen, Professor Feinerman and Mr. Turkel. I very much appreciate the 
hard work and concern of the CECC Commissioners, including Congressman 
Pitts who is with us today, and the CECC staff.
    I have been receiving many messages from lawyers in China about 
their law 
license cancellations or that their licenses have not been renewed by 
the Beijing Lawyers Association. This is not only unnecessary and 
unjust, but also an unprecedented development. As far as we can 
confirm, 19 attorneys at this time are unable to practice law. They are 
Jiang Tianyong, Li Heping, Li Xiongbing, Li Fuchun, Wang Yajun, Guo 
Shaofei, Cheng Hai, Tang Jitian, Yang Huiwen, Tong Chaoping, Liu 
Guitao, Xie Yanyi, Wen Haibo, Liu Wei, Zhang Lihui, Zhang Chengmao, 
Zhang Xingshui, Wei Liangyue and Sun Wenbing. These attorneys have 
always persisted in providing legal assistance for clients to safeguard 
their legitimate rights. Of the reports I have seen, the Open Letter to 
the Ministry of Justice on July 2nd most succinctly and clearly 
explains the situation of the license denials and points out the root 
problems and effects of this on a national level. This letter was 
written by 31 Chinese intellectuals--23 in Beijing, 7 in other regions 
of China, and 1 in Australia. I request that the full text of this Open 
Letter be entered into the Congressional Record. I will read a few key 
points of the letter:

          We think this case is entirely a violation of the law. As a 
        social organization in the legal industry, Beijing Lawyers 
        Association has no right to restrict or deprive its members of 
        their right to practice. In the past, there were cases in which 
        Beijing Lawyers Association deprived some human rights 
        attorneys of their qualifications to practice, and that was 
        considered an illegal overstepping of its authority. Now, it 
        has even forced many law firms to stop their service and made 
        several hundred attorneys unable to practice, which is all the 
        more astonishing. Such illegal, absurd and perverse acts that 
        violate the common sense will bring serious bad consequences to 
        the society.
          On July 18, 2008, the Ministry of Justice promulgated 
        ``Management Methods in Attorneys' Practice'' and ``Management 
        Methods on Law Firms'' which officially annulled the annual 
        registration system on the attorneys. At this time, Beijing 
        Lawyers Association issued a notice and changed 
        ``registration'' to ``register'' and totally disregards the 
        principles of Ministry of Justice in ``the specific methods for 
        annual evaluation shall be provided by Ministry of Justice.''
          . . .First of all, it will further worsen the environment for 
        rule of law in the society. . . . By taking advantage of the 
        authorization from Beijing Bureau of Justice, the Beijing 
        Lawyers Association suppresses and takes revenge on human 
        rights lawyers as it wishes. . . . Most of these attorneys are 
        the top-notch outstanding attorneys who have the highest 
        awareness of rule of law among about ten thousand attorneys in 
        Beijing.
          . . .Second, cancellation of the licenses of a large number 
        of attorneys has undermined to a great extent the strategic 
        elements for building a harmonious society.
          . . .Third, canceling the right to practice of so many right 
        defense attorneys is a provocation on the social conscience.

    The first part of my recommendation for Congressional response is 
to base the response on this recommendation from the Open Letter to the 
Ministry of Justice: it is a clear, straightforward framework on which 
U.S. Congressional response to Beijing can be based. I will read from 
the Open Letter:

          It is our belief that as the highest judicial administrative 
        organ of our country, the Ministry of Justice should not ignore 
        such a violation of law by Beijing Municipal Bureau of Justice 
        and Beijing Lawyers Association in worsening the environment 
        for rule of law, undermining the social harmony and in 
        challenging the social conscience. We hope the Ministry of 
        Justice can, in the principle of ``upholding the spirit of rule 
        of law'' as proposed at the 17th CPC National Congress, order 
        Beijing Municipal Bureau of Justice and Beijing Lawyers 
        Association to withdraw their decision, correct their mistakes, 
        restore the right defense lawyers' right to practice and 
        apologize to the people in various circles of life, so as to 
        solve this problem in a fair, reasonable and legal way.

    I appreciate the clear statements in this letter which explain not 
only their concern but also the national effects of these license 
denials--effects which ultimately concern each one of us especially 
because of the unfortunately utter disregard to rule of law by the 
largest regime in the world.
    One question to be addressed by this panel is, ``What is the 
relationship between these lawyers and the Chinese government and the 
Communist Party? '' This brings up an intriguing point--because these 
human rights lawyers have been moving forward according to the proposal 
from the 17th CPC National Congress to ``promote the spirit of rule of 
law'' and ``realization of rule of law in various jobs of the state.'' 
A simple list has been compiled of each lawyer whose license has been 
revoked or not renewed, and the important incidents and cases the 
lawyer has been involved with: the categories mentioned in this list 
include the Sanlu poisonous milk powder incident, abnormal deaths while 
the victim was in custody, representing house churches, re-education 
through labor cases, rights of migrant works and ethnic minorities, 
cases of Falun Gong practitioners, rights of HIV patients, and the case 
of the underground brick kilns in Shanxi province.
    Which of these cases should a government shrink from having 
represented by a professional lawyer? Does not rule of law necessitate 
the vulnerability to transparency? Transparency under rule of law, in 
some of these cases, might necessitate acknowledgement of unjust 
measures or inappropriate use of authority--and that is unfortunately a 
consistent possibility in any government because of human nature. What 
is not necessitated or acceptable is repression of the lawyers who are 
implementing rule of law.
    Not only have human rights lawyers experienced this challenge to 
their licenses, but some have also experienced actual physical 
harassment. We have received statements from seven attorneys which I 
request be entered into the Congressional Record. For example, on May 
13, 2009, attorneys Zhang Kai of Kaifa Law Firm in Beijing and Li 
Chunfu of Globe-Law Lawyers in Beijing were forcibly detained while 
visiting with a client in a personal residence. They were physically 
hurt, and thrown in prison for a few hours.
    Gao Zhisheng's case continues to baffle and sadden us. He has now 
been missing for 156 days, since February 4, 2009. The last time he was 
forcibly taken and hidden in 2007, he experienced 58 days of 
unspeakable torture. His written account of this torture provides the 
factual basis for the ``FreeGao'' DVD available on the table. To date 
about 100,000 people have signed the online petition at 
www.FreeGao.com, requesting that accounting be made of Gao's situation 
and well-being. Why is it that Ambassador Zhou states about Gao that, 
``The public security authority has not taken any mandatory measure 
against him? '' Why are the officials emboldened to take him, keep him, 
and refuse to account for him?
    Attorney Gao has taken bold stands for freedom and truth in China; 
he has appealed to the Congress for their support, and it is feared he 
could be on the verge of death now. Many human rights lawyers in China 
do not feel they will take the exact approach that Gao has and have 
made intentional steps to stay generously within the limits of Chinese 
law--yet, the repression is not even limited to Gao's dramatic moves, 
but instead we see in the developments with law licenses that even 
these lawyers' very basis on which to continue work is being 
threatened.
    These developments strengthen the plea to the U.S. Congress to 
publically investigate these issues, affirm truth and justice, and 
actively stand for freedom with freedom-fighting, law-loving lawyers in 
China. Also, I urge the Obama Administration officials and the senior 
U.S. diplomats in our Embassy in Beijing to publicly, regularly and 
frequently meet with these freedom fighters in and outside China when 
they are available so that an unambiguous strong signal can be sent to 
both these courageous rights defenders and the Chinese government that 
the American people will stand in firm solidarity with any freedom 
fighters in any part of the world. Thank you.

                       Submissions for the Record

                              ----------                              


          Final Compilation of Translated Lawyers' Statements

 The Challenges Rights Defense Attorneys in China Face and Its Future 
                                Prospect

                              li fangping
July 5, 2009

    We are now living in the China set against such a dramatic 
background of the times: First, the economic system is fast evolving 
while its political system has seen little changes over the years. 
Second, its legal system is increasingly improving, but the public 
power is often not restrained by the law. Third, the citizens' 
awareness of their rights is increasing and the more the awareness to 
defend one's rights, the more prominent the abuse and the shirking of 
responsibilities by the public power becomes.
    With the advent of the Internet in China, the first widespread and 
passionate participation by the citizens in political matters occurred 
in 2003 during the ``Sun Zhigang Incident,'' which successfully made 
the State Council announce the annulment of the system of ``internment 
and deportation.'' In the next year, ``The State respects and 
safeguards human rights'' was solemnly written into the Constitution. 
In the next five years, right defense attorneys have, as a professional 
social group committed to promoting rule of law and safeguarding human 
rights, presented themselves before the world.
    Certainly, in a country where rule of law is still far from 
realized and where there is full of terrible things against ordinary 
citizens, the work and life of right defense attorneys must be full of 
obstacles and frustrations. Just because we engage in work involving 
human rights, government departments not only do not understand the 
significance of our existence, they also regard us as the targets of 
their domestic defense. We seem to have become personae non gratae in 
the eyes of the government and we are often treated unfairly. Some of 
us have been beaten and kidnapped. The personal freedom of some of us 
is illegally restricted and some of us are illegally stalked by force. 
Some of us are forced to report our activities and some are driven out 
by our landlords due to pressure from the government. Some are 
threatened and given a disciplinary warning by Bureau of Justice and 
lawyers' associations. Some are simply fired by their law firms due to 
pressure from the government.
    This year, the right defense attorneys as a social group are 
enduring more pressure than ever before. As far as I can confirm, 19 
attorneys at this time are unable to practice law. They are Jiang 
Tianyong, Li Heping, Li Xiongbing, Li Fuchun, Wang Yajun, Guo Shaofei, 
Cheng Hai, Tang Jitian, Yang Huiwen, Tong Chaoping, Liu Guitao, Xie 
Yanyi, Wen Haibo, Liu Wei, Zhang Lihui, Zhang Chengmao, Zhang Xingshui, 
Wei Liangyue and Sun Wenbing. These attorneys have always persisted in 
providing legal assistance or defense services for clients to safeguard 
their legitimate rights. They include victims of Sanlu poisonous milk 
powder, parents of children victimized in the earthquake, HIV carriers, 
peasants who have lost their land, detained Tibetans, house church 
Christians, Falun Gong practitioners, right defense activists, 
political dissidents, victims of violent family planning policies and 
clients from other various areas.
    Judicial administrative departments in Beijing and other places 
have terminated attorneys' rights to practice on the ground that these 
right defense attorneys have not passed the so-called ``annual 
evaluation'' or that the law firms where they work have not passed the 
``annual inspection.'' However, the ``annual evaluation'' for attorneys 
and the ``annual inspection'' for law firms themselves are not the 
administrative penalty that can terminate the right to practice of the 
attorneys or of their law firms. We can see that the ``annual 
evaluation'' for attorneys and the ``annual inspection'' of law firms 
have degenerated into an illegal, disorderly and remediless 
administrative penalty in disguised form that overrides the 
disciplinary penalty in the industry and administrative penalty on the 
practicing attorneys.
    What delights us is that on the one hand, the right defense 
attorneys have not given up their idea of safeguarding rule of law and 
human rights. Each time they negotiate with judicial administrative 
departments, they express their criticism on the illegal administration 
and their firm belief that China will certainly develop into a country 
under rule of law. On the other hand, the disadvantaged social groups 
whose rights are harmed also express their desire of ``attorneys for 
us, and we for attorneys.'' It is my belief that the appeal for rights 
by the ordinary people whose rights are harmed, and the sense of 
mission of the attorneys, will combine to form a powerful synergy in 
promoting the progress of our country in human rights and rule of law. 
Though the road to rule of law and human rights in China will be hard 
and long, yet the long march of this time is attracting more and more 
people, including you, us and them. Given this situation, I, as a 
member of this social group of defense attorneys, personally am full of 
confidence for the ``Same World, Same Human Rights.''
    Finally, let me express my gratitude for all my friends who are 
concerned about the rule of law in China and the progress in human 
rights.
                                  * * *

             Joint Declaration of Rights Defense Attorneys

                        zhang kai and li fuchun
Night, July 6, 2009

    Some of us rights defense attorneys hereby ask ChinaAid Association 
to publish the following declaration to the international community on 
our recent sufferings and the worsening prospect for the rule of law in 
China:
    Recently, the rights defense attorneys in China are suffering 
unprecedented large-scale repression. Rights defense attorneys are a 
particular social group in China, and they can also be referred to as 
human rights attorneys. The work the rights defense attorneys do is 
mainly using the relief of law to safeguard citizens' basic rights 
within the framework of the Constitution such as freedom of speech, 
freedom of belief, personal freedom and freedom of property from 
illegal infringement by the public power, etc. In such a country as 
China where there is a tradition of thousands of years of autocratic 
rule and where law is not clearly defined, rights defense attorneys 
have always been regarded by the authorities as aliens to be expelled 
and suppressed. Recently, the authorities have become more and more 
brazen and wanton in such attacks and suppression that the professional 
licenses of some attorneys were unreasonably rejected during the annual 
inspection, resulting in their inability to practice their law. A few 
attorneys were even violently beaten.
    The prominent human rights attorneys from Beijing Zhang Kai and Li 
Chunfu were besieged by over 20 local policemen and met with violence 
and beatings at the residence of their client when they were in 
Jiangjin, Chongqing, Sichuan province to investigate the case of Jiang 
Xiqing who died an abnormal death during custody at a labor camp. Zhang 
Kai and Li Chunfu were taken away in handcuffs and were detained for 
six hours. The police illegally examined the computers and the 
materials the attorneys brought with them as evidence. They tried to 
force the attorneys to cancel the contract with their clients. As of 
today, the two attorneys still have not recovered from their injuries. 
The two attorneys are still trying to talk with relevant departments 
with reasonable and legal means that they have always used in defending 
the rights of other people. So far, however, they have not given any 
official explanations.
    We expect the international community to show more concerns on the 
rights defense attorneys in China. Because the legal system in the 
Chinese society advances so slowly or even goes backwards, the social 
conflicts are increasingly intensifying and the ways by which the 
people seek relief thereof are full of barriers. Given this situation, 
rights defense attorneys are making great efforts and are paying a 
great price for the progress of the Chinese law, for which they have 
made indelible achievements in the history of the progress of rule of 
law in China. They not only provide legal relief in individual cases, 
but rights defense attorneys have also played a role in neutralizing 
social conflicts and in easing tensions between the government and the 
people. They provide legal assistance and moral support for the 
miserable Chinese people and are truly promoting the balanced and 
orderly development of the society.
    We also hope the Chinese government can correct its errors in its 
administration out of its own will and give the rights defense 
attorneys a legal and sufficient professional environment. Law is the 
bottomline in guaranteeing that a government wins the support of its 
people. It is also the last line of defense with which the people can 
enjoy the freedom and safety in their life. They should give the rights 

defense attorneys more encouragement and support, not suppression or 
injury. Otherwise, such an injury can affect the image and dignity of 
the Chinese government itself.
    Doubtlessly, every human being created in the image of God the 
Creator enjoys the rights of freedom and equality. The Constitution is 
the reality of protection of such rights which no one or no government 
has the right to deprive the people of. This type of rights is natural 
and has universal values. Rights defense attorneys adhere to the basic 
spirit endowed by the law and plead on behalf of the people for freedom 
and equality. And such rights originated from the authorization of God 
and transcend all countries and races, whether they are Chinese, 
Americans or tribes in Africa. When man's rights and dignity are hurt, 
it is the loss on the glory of the Creator. Every one of us has the 
obligation to strive for improvement on this issue. We hope there will 
be changes in the Chinese society and we are willing make our efforts 
in building a free and democratic country under rule of law based on 
the law of China and the spirit endowed by the law.

Zhang Kai, attorney (Yijia Law Firm of Beijing)
Li Fuchun, attorney.
                                  * * *

 Human Rights Attorneys in China Very Active but Find Themselves in a 
                             Dire Situation

                             jiang tianyong
    Since 2005, the social conflicts in China have been intensifying, 
but people are fast awakening in the awareness of their rights. Given 
such a background, the rise of the right defense movement has produced 
a group of human rights defenders such as Gao Zhisheng, Chen Guangchen, 
Guo Feixiong, Hu Jia, Li Heping, etc. Human rights attorneys are an 
important group of these people. The human rights attorneys in China 
work in a wide range of fields such as the freedom of religious belief, 
freedom of speech, freedom of association, residential rights 
(objection to forced removal), land rights, rights of ethnic minorities 
(such as Tibetans), etc. On the one hand, they are becoming more and 
more active and are more and more needed and depended upon by victims 
whose human rights are abused. On the other hand, they suffer 
harassment, repression and persecution from the government.
    Following is my experience to demonstrate this situation:
    My name is Jiang Tianyong, and I'm a male of Han nationality. I was 
born in Henan province, PRC in 1971. Currently, I'm residing in the 
Haidian District of Beijing, China. Because I wanted to engage in work 
of defending human rights, I quit my work at a middle school in Henan 
province and came to work at Beijing Globe-law Firm in 2004. In 2005, I 
got my attorney's license and became a practicing 
attorney. After that, I've taken a large number of human rights cases, 
both individually or in partnership with my associates. As a result of 
this, I've suffered various forms of persecution from the government. 
Except 2007, I met troubles in renewing my attorney's license at 
Beijing Bureau of Justice during the annual inspection/registration/
annual evaluation in 2006, 2008 and 2009.
    In 2006, as I was involved in right defenses cases of migrant 
workers, Gao Zhisheng's case, victims of violent family planning 
policies in Linyi, Chen Guangchen's case, I was harassed and threatened 
by the secret police of Domestic Security Protection Squad of Beijing. 
They tried to prevent me from participating in these so-called 
sensitive cases, claiming that it was not good for me. They also said 
that if I wanted to make a fortune, they could help. Their demands were 
not unfulfilled. People from Beijing Municipal Bureau of Justice found 
me through my law firm and told me they forbad me to get involved in 
some cases. They even used special means in getting to know that I had 
bought a train ticket to go to Linyi for the violent family planning 
case. They called me many times and forbad me from going there. Even my 
wife who was living far away in Zhengzhou, Henan province was harassed 
on the phone by them in the middle of the night. In the meantime, as my 
landlord could not endure the pressure from the secret police, and he 
refused to continue renting the house to me. I had to move out. In the 
same year, the registration of my attorney's license and Li Heping's 
license got into trouble and were delayed. Beijing Municipal Bureau of 
Justice illegally forced me and my law firm to write a statement of 
guarantees.
    Starting from August 2006, I was illegally stalked because of Gao 
Zhisheng's case and was placed on house arrest for five months.
    In 2008, I continued engaging in cases of human rights and began to 
provide legal assistance to people sentenced to re-education through 
labor and HIV carriers. I also provided legal support for NGO 
organizations that defend human rights--for example, Aizhi Research 
Institute of Beijing (www.aizhi.net) and Open Constitution Initiative 
(OCI) (www.gongmeng.cn). After the March 14 Incident in Tibet, I signed 
a declaration to express my willingness to represent the arrested 
Tibetans. In that year, I met with serious troubles from Beijing 
Municipal Bureau of Justice during the annual inspection and 
registration of my attorney's license. They unequivocally told me the 
reason: ``You have gotten involved in sensitive cases.'' They said they 
wanted to ``unleash their wisdom'' and ``break the livelihood'' of us 
human rights attorneys. Beijing Municipal Bureau of Justice tried 
illegally to force me to write a statement of guarantees in which I 
would promise not to get involved in sensitive cases again and not to 
have interviews with the media. Because their demands lack legal basis, 
they were rejected by me. After widespread concerns from people both in 
China and abroad, I finally passed the annual inspection and 
registration on June 30 of that year. At this time, I have not been 
able to engage in attorney's work for a month now.
    From July 2008 to May 2009, I represented a large number of people 
in cases ranging from Falun Gong, HIV carriers in defending their 
rights, earthquake victims (such as Hong Chun case), Tibetans (such as 
Phurbu Tsering Rinpoche the living Buddha and Jigma Lama). I also 
participated in the direct election of Beijing Lawyers Association. 
Because of this, I was seriously persecuted by Beijing Municipal Bureau 
of Justice and Beijing Lawyers Association. They joined forces in 
trying to force the law firm where I worked not to renew our contract. 
From the end of 2008 to March 2009, the head of Globe-Law Lawyers where 
I worked talked with me on many occasions and told me that ``since we 
work under them, we have to yield.'' ``We really can't endure the 
pressure from the above (referring to Bureau of Justice and Beijing 
Lawyers Association) and ``We shouldn't be closed (by Beijing Municipal 
Bureau of Justice and Beijing Lawyers Association) just because of you 
(representing people in cases involving human rights), etc.'' In the 
2009 ``Annual Evaluation'' of attorneys, the great majority of Chinese 
human rights attorneys who strictly adhere to law have failed to pass. 
Six human rights attorneys from our law firm are all among these 
attorneys who have failed to pass. They are myself, Li Heping, Li 
Xiongbing, Li Fuchun, Wang Yajun and Guo Shaofei. May 31, 2009, the 
expiration date for the annual evaluation and we haven't been able to 
engage in jobs as an attorney since then. Now, we not only can't accept 
new human right cases, but we also have to stop on cases that we have 
already accepted before this date, such as the case of Li Zhigang of 
Shenyang (Falun Gong), He Hongchun case (a case from the earthquake 
disaster areas), the case of Phurbu Tsering Rinpoche (case involving 
Tibetan issues) and other human rights cases. When human rights 
attorneys themselves are bogged down in a difficult situation, the 
rights of the clients in human rights cases also lose their protection 
instantly! Other human rights attorneys and I myself have made 
inquiries at the relevant people at Beijing Municipal Bureau of Justice 
and Beijing Lawyers Association, but nobody has given us an official 
reply. So far, we still have not received any documents in writing 
related to the result of our annual evaluation results. Yet, the hints 
we have received from Beijing Municipal Bureau of Justice, Beijing 
Lawyers Association and our own law firm show that our current 
predicament has something to do with the cases we have accepted. At 
about 11:20 a.m. on July 3, Attorney Zhang Xuebing, president of 
Beijing Lawyers Association told us in the capacity as an ``attorney of 
our own kind'':
    ``I know something about your issues. This issue is actually very 
complicated. As the old saying goes: `Rome was not built in a day. 
Doubtlessly, every human being enjoys the rights of freedom and 
equality because of the creation by God' and it is not that easy to 
solve this problem. You'd better talk with your superiors, and I'm 
afraid you still have to find a way to win the trust of the Party and 
the government! ''
    Starting from 2006, I have always been placed on house arrest on 
June 4 anniversaries, October 1, the Beijing Olympics and state visits 
by important diplomats 
(including China--Africa Forum on Cooperation, visit in 2008 by 
Congressmen Wolf and Smith). Though I was in America when U.S. 
Secretary of State Hillary Clinton visited China, my family was 
harassed on many occasions by the police. From June 3 to June 7 of 
2009, the police were deployed at my door and prohibited me from 
leaving the house. They threatened me with my personal safety and the 
safety of my wife and my daughter.
    No matter how we suffer, we the human rights attorneys will still 
adhere to our own belief and will never give up our efforts in winning 
and defending human rights. In the meantime, we also call on the people 
who live in the free world and under rule of law to show concern to the 
efforts made by Chinese people in winning and defending human rights. 
This is because as long as there are still members of the human race 
who live in fears and lack of freedom, the enjoyment of freedom and 
human rights is very likely to be short-lived.
                                  * * *

 Fighting for Rights Continues Even as Persecution Escalates--A Human 
             Rights Attorney's Experience and Perseverance

                              tang jitian
    My name is Tang Jitian. I am male of Han nationality. I was born in 
Jilin, China, on September 1, 1968. I am currently residing in Chaoyang 
District, Beijing Municipality, China. I started practicing law in 2005 
and relocated from Guangdong to practice law in Beijing in 2007. I am 
now a practicing attorney with Anhui Law Firm of Beijing.
    Since August 2008, my normal law practice has been seriously 
interrupted. At the beginning, I was notified several times by my 
former law firm (Beijing Haodong Law Firm) that my contract would be 
terminated ahead of schedule or I should cease my practice. The reason 
was that the Beijing Municipal Judicial Bureau and Beijing Lawyers 
Association were infuriated by my and other colleagues' call for direct 
election of Beijing Lawyers Association. I found my current law firm 
before my contract of employment expired, but during the course of 
transfer, my case was unreasonably delayed for nearly twenty days by 
the judicial administrative department and Beijing Lawyers Association. 
(The processing clerk said in private that the same thing happened to 
all those on the blacklist.) Since June 2009, the government has again, 
in a disguised form, deprived me of my right to practice law. But I 
have not committed any violation of law or regulations. And my work as 
an attorney has never been criticized or complained about by my 
clients. On the contrary, many people, including my clients, often 
spoke to me directly or on the phone or in their letters about my work, 
praising me for defending human rights in accordance with law. They 
encouraged me to overcome the pressure and oppression from the 
government by giving me their support. They, of course, also felt 
worried about my situation.
    The reason I was suppressed and persecuted by the government is 
that as an attorney I was involved in quite a lot of work defending 
human rights. About a week before I was forced to stop practicing law, 
a police officer named Wang from the General Domestic Security 
Protection Squad of Beijing Municipal Public Security Bureau called to 
make an appointment for a talk with me. His demand was rejected by me. 
(In April, Wang, together with Sun Di, head of the Domestic Security 
Department and a police officer surnamed Han, had already talked with 
me regarding the issues such as Charter 08, representation of cases, 
and the direct election of Beijing Lawyers Association.) After that, 
Sun Di again called me, demanding that we have a talk. After he was 
rejected by me, he threatened me by saying that he could find me 
through other methods.
    Soon afterwards, after six o'clock on the morning of June 3, 2009, 
under the pretext that we needed to cooperate with an investigation of 
a case of so-called burglary that had taken place, Attorney Lan Zhixue 
and I were first prohibited from going out freely. Then we were taken 
to the Sijiqing Police Station in Haidian District, Beijing 
Municipality. After they had interrogated me and taken a written 
record, the police officers at that station unreasonably and illegally 
detained me till eight o'clock in the evening. That night when I was on 
my way back to my residence, I was followed and stalked by police 
officers Lu Yonghui and Zhang Jian from the Domestic Security 
Protection Squad of Public Security Branch of Haidian District, Beijing 
Municipality as well as police officers Li Jing and Shi from Sijiqing 
Police Station. This continued till dawn on the 4th. Later, these 
police officers sent for additional police officers. Blocking attorney 
Dong Qianyong, who was with me, they forcibly pushed me into the car 
and drove me to their secret detention spot. (It is now known that this 
place is called Kao Fu Te Sports Training Center and is in the vicinity 
of the Linglong Bridge in Haidian District.) In the few days that 
followed, they arranged police officers and security guards to keep 
watch over me, forbidding me to contact the outside world. Furthermore, 
I was not allowed to step out of the room at all. During my detention, 
Lu Yonghui from the Domestic Security Protection Squad and the police 
officer named He who later joined him held several rounds of what they 
called exchange of communications, asking me not to get involved with 
human rights cases (such as the cases of Falun Gong), and not to demand 
rights from the Judicial Bureau and the Lawyers Association, and not to 
take part in any social affairs that will irk the government. They 
stated several times that if I did not cooperate, I could have trouble 
living and working in Beijing. On June 6, I was transferred to a hotel 
(I later learned that it was called Dong Lun Xin Xing Hotel) in 
Chaoyang District where I was held in custody till the evening of June 
7 when I regained my freedom. In the past few days, at the request of 
the police, the owner of the house that I have been renting has asked 
me to move out and relocate somewhere else.
    Over the past few years, as an attorney I have been mainly engaged 
in defending citizens' right to freedom of expression, right to freedom 
of religion, right to housing, right to land, and other fields of human 
rights. It is exactly for these works that I was repudiated and treated 
with hostility by the government. These works include legal defense for 
persecuted believers such as Falun Gong practitioners, representation 
of Wang Zhaojun whose right to freedom of speech and expression was 
infringed upon by Sina.com (Wang's blog site was shut down by Sina.com 
because he published ``A Letter to the Chinese People''), and advocacy 
of the rights of the farmers who have lost their land as well as 
advocacy of the right to equal employment.
    With regard to defending our own rights as attorneys, my efforts 
focusing on pushing for direct election of Beijing Lawyers Association 
have also become one of the major reasons why some officials have 
identified me as a ``non-mainstream'' attorney.
    Since April 2009, making illegal use of the annual evaluation, 
Beijing Municipal Bureau of Justice and Beijing Lawyers Association 
have instructed the Judicial Bureau of Chongwen District several times 
to have the law firm under its jurisdiction fire me, stating that if 
attorneys like me were not fired, then the law firm would be subject to 
rectification and reform indefinitely.
    As of today, there has been no change whatsoever in my situation 
where the government, by subjecting me to an illegal annual evaluation, 
has in a disguised form, deprived me of my right to practice law.
                                  * * *

                Practicing Law Under Ubiquitous Pressure

                              li xiongbing
    My name is Li Xiongbing, and I am male of Han nationality. I was 
born in Hubei, China, on September 18, 1973, and I'm currently residing 
in Tongzhou District, Beijing Municipality, People's Republic of China. 
Since 2005 I have been working as a practicing attorney at Beijing 
Globe-Law Firm.
    After the registration of my attorney license was postponed in 2008 
by Beijing Municipal Bureau of Justice on the grounds that I had 
``handled sensitive cases,'' my qualification as an attorney and my 
right to practice law has again been arbitrarily revoked by Beijing 
Municipal Bureau of Justice since June 2009. However, I have never 
committed any violations of law or regulations, and my work as an 
attorney has never been blamed or criticized by my clients. On the 
contrary, many of my clients and members of the general public often 
call me or write to me to praise my work, encouraging me to overcome 
the pressure from public powers and become an outstanding human rights 
attorney.
    The frequent suppression and persecution I have suffered while 
working as an attorney are directly linked with my advocacy for human 
rights. Precisely on the morning of May 31, 2009, the day when my work 
as an attorney was about to be illegally terminated, two police 
officers from Domestic Security Protection Squad from the Beijing 
Municipal Public Security Bureau made an appointment to talk with me. 
They expressly gave me two warnings. First, that I should not defend 
Falun Gong practitioners ever again. Second, that I should not 
participate again in the relevant work of a non-governmental 
organization dedicated to pushing for the rule of law and human rights 
progress. I persisted in practicing my profession independently in 
accordance with law and rejected their unreasonable demands.
    As expected, soon afterwards, I failed to pass the annual 
evaluation for my attorney license, and I was unable to practice law. 
Starting from June 2, I was monitored and followed by police officers 
or police cars for eight days in a row and was not allowed to go to any 
place without prior approval from the police and meet with anyone 
without prior approval of the police. It was not until the evening of 
June 9 that I regained my freedom. In addition, on the evening of June 
5, at the request of the police, the owner of the house that I was 
renting came to my home, asking us to move out and leave Beijing. The 
kindergarten my child was attending was also harassed by the police and 
had to relocate to a place far away from my residence. My pregnant wife 
was also questioned and investigated several times by the relevant 
departments due to her lack of a so-called ``pregnancy permit'' and, 
she received warnings and threats.
    Over the past few years, my work as an attorney has been mainly 
concentrated on these areas: advocacy of civil rights such as citizens' 
right to freedom of expression, the right to freedom of religion, and 
equal rights as well as public legal services. It is exactly for the 
work in these areas that I was repudiated and treated with hostility by 
the government. My work includes the case of Qi Chonghuai, a journalist 
for Legal Times, involving the freedom of speech; the case of Yuan 
Xianchen, a human rights worker in Heilongjiang province, involving 
instigation of the subversion of the government; the case of providing 
legal assistance to victims of Sanlu poisonous milk powder; the case of 
providing legal assistance to victims of child slavery in ``illegal 
brick kilns'' in Shanxi, as well as legal defense cases involving 
religious persecution of believers such as those of ``Falun Gong'' and 
the faction of ``Three Grades of Servants.''
    At the end of 2008, because I provided legal assistance to the 
victims of toxic Sanlu milk powder, I was warned and threatened several 
times by Beijing Municipal Bureau of Justice, Beijing Lawyers 
Association, and other departments. In the summer of 2008, I was also 
suppressed and threatened several times by Beijing Municipal Bureau of 
Justice, because I had provided legal assistance to the families of 
children victimized in the earthquake disaster area, and was forced to 
stop providing legal aid.
    As recently as the morning of June 30, 2009, Huang Weizhong, a 
believer of Falun Gong in Jiamusi Municipality of Heilongjiang 
Province, was detained and tried. I took the case in April 2009 and 
acted as a defense attorney for Huang Weizhong. However, when the court 
trial started on the morning of June 30, the People's Court in the 
suburbs of Jiamusi Municipality blocked me from entering the court to 
perform my job as an attorney on the grounds that I failed to pass the 
annual evaluation Beijing Municipal Bureau of Justice. Without having 
me present as his defense attorney, Huang Weizhong was sentenced to 
three years of imprisonment.
                                  * * *

            Defending Rights in Hardship and on a Thin Line

                               wen haibo
    Personal resume: Wen Haibo is a male of Han nationality. He was 
born in Liaoning, People's Republic of China in 1980. Currently, he 
resides in Chaoyang District, Beijing Municipality, PR China. He 
started his career as an attorney in 2004 and once worked at Shengzhi 
Law Office and Yitong Law Firm. Currently, he is a practicing attorney 
in Shunhe Law Firm of Beijing.
    From November 2005 to March 2009, Shengzhi Law Office and Yitong 
Law Firm, both places where I once worked, were given administrative 
penalties of ``suspending business for reorganization'' due to 
different but groundless reasons given by judicial authorities of 
Beijing. The true reasons were none other than that these law firms had 
gotten involved with or had participated in some cases and incidents 
with which the authorities were not pleased.
    I started working with Attorney Gao Zhisheng in April 2004 until 
the law firm was shut down in November 2005, and I was forced to leave. 
During this time, both Attorney Gao and I represented a large number of 
people from socially disadvantaged groups in defending their rights. 
When we began to defend the rights of Falun Gong adherents in 2005, the 
suppression we suffered escalated gradually. At first, the judicial 
authorities or the people working in Beijing Lawyers Association 
constantly made appointments with us for talks where they gave us a 
warning of ``not allowing you to accept Falun Gong cases.'' After that, 
the police constantly harassed, stalked us and videotaped us without 
permission. At the end of 2005, after Attorney Gao launched a campaign 
of ``hunger strike to fight against violence,'' I and several other 
people working in the law firm were one by one placed under house 
arrest. When I was under house arrest,, several plainclothes policemen 
stayed downstairs 24 hours a day, and they did not allow me to go out. 
When I had to go out (such as for shopping), someone shadowed me 
closely. This lasted 45 days.
    I left Shengzhi Law Office at the end of 2005 and went to work at 
Yitong Law Firm. During this time, besides defending the rights of 
Falun Gong adherents, I also signed in with the attorneys' delegation 
to provide legal assistance for the Tibetans arrested during the March 
14 Incident in Tibet. The signatures for that delegation brought such a 
great repercussion that about 10 attorneys who joined the delegation 
all received warnings from the judicial authorities and the police. The 
police station in charge of my area also made an appointment with me 
for a talk. They threatened me and told me to leave Beijing. I flatly 
refused. In the second half of 2008, I also joined the movement of 
calling for ``the direct election of Beijing Lawyers Association.'' The 
mention of ``direct election'' obviously touched the frail nerves of 
some people in the judicial departments. They counterattacked in a high 
profile way, and denouncing us as ``linking up with each other in 
private, using democratic election as a signpost, publishing seditious 
remarks, spreading rumors among the lawyers in Beijing to bewitch the 
people,'' ``attempting to break away from the supervision and guidance 
of the judicial administrative departments and the administration of 
the Lawyers Association in order to deny full-scale the current 
administrative system on attorneys, the judicial system and even the 
political system.''
    As many attorneys from Yitong Law Firm joined in calling for 
``direct election,'' the judicial authorities intended to ``kill one as 
a warning to many others'' and suspended Yitong Law Firm for 
reorganization.
    When Yitong Law Firm was shut down at the end of 2008, I was again 
forced to transfer, this time to Shunhe Law Firm. Since I did not stop 
getting involved in various cases of human rights and mass groups 
defending their rights, I brought suppression here, too. Since I did 
not pass the annual evaluation by Beijing Lawyers Association, I cannot 
practice normally at this time, and several cases I have accepted 
before were forced to stop.
    Though I have met temporary (possibly long-term or permanent) 
difficulties in my work, I have received the encouragement and support 
from my clients and other friends. With this encouragement and support, 
I do not feel lonely and will continue walking along this road!

                                 <all>

</pre></body></html>
